<html>
<title> - ALL TAXA BIODIVERSITY INVENTORY</title>
<body><pre>[Senate Hearing 110-601]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-601
 
                    ALL TAXA BIODIVERSITY INVENTORY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   TO

RECEIVE TESTIMONY REGARDING THE ALL TAXA BIODIVERSITY INVENTORY OF ALL 
 SPECIES WITHIN THE GREAT SMOKY MOUNTAINS NATIONAL PARK. SPECIFICALLY, 
THE HEARING WILL ADDRESS: 1) HOW MUCH HAS BEEN LEARNED UP TO THIS POINT 
AND AT WHAT COST? (2) WHAT IS LEFT TO BE DONE AND WHAT IS THE ESTIMATED 
TIME AND COST TO COMPLETE THE INVENTORY? (3) HOW HAS THE DATA BEEN USED 
AND ARE THERE OTHER WAYS TO USE IT? (4) WHAT CHANGES, IF ANY, SHOULD BE 
 MADE IN THE PROGRAM AND (5) SHOULD THE PROGRAM BE EXPANDED TO INCLUDE 
                         OTHER NATIONAL PARKS?

                               __________

                      ASHEVILLE, NC, JULY 21, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources



                     U.S. GOVERNMENT PRINTING OFFICE
45-337 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bogart, Glen, Principal, Pi Beta Phi Elementary, Gatlinburg, TN..     6
Burr, Hon. Richard, U.S. Senator From North Carolina.............     1
Ditmanson, Dale, Superintendent, Great Smoky Mountains National 
  Park, National Park Service, Department of the Interior........     3
Watkins, Tim, Program Officer, National Geographic Society.......    18
White, Peter, Professor, University of North Carolina at Chapel 
  Hill, Director, North Carolina Botanical Garden, and Board of 
  Directors, Discover Life in America, Chapel Hill, NC...........    12

                                APPENDIX

Responses to additional questions................................    43


                    ALL TAXA BIODIVERSITY INVENTORY

                              ----------                              


                         MONDAY, JULY 21, 2008

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                     Asheville, NC.
    The subcommittee met, pursuant to notice, at 9:32 a.m. at 
Alumni Hall, Highsmith Union, University of North Carolina 
Asheville, Hon. Richard Burr presiding.

OPENING STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Good morning. I'm Senator Richard Burr. I 
would like to officially start the field hearing this morning 
for the National Parks Subcommittee.
    At the start of this I look out to see many friends of the 
Park. Both sides work. I'm reminded as I sit here, they 
wouldn't be here if North Carolina hadn't given that land to 
Tennessee.
    [Laughter.]
    Senator Burr. There is no dispute of how much of it lies in 
Tennessee but we share it with our neighbors.
    Let me first and foremost publicly thank Senator Akaka, who 
is the chairman of this subcommittee. He has graciously agreed 
for this hearing to take place. I think when you have a 
national treasure, like the Great Smokies it's important that 
we publicly acknowledge all benefits that come out of it.
    It's not only the largest visited park in the country. As 
we will find today, it is rich in biodiversity. It is a 
treasure for all to come see. Not for just its natural beauty, 
but for the things that we find and continue to find. This 
morning's hearing is about what we discovered in the last 10 
years and more importantly why we should continue to address 
it, look for new species.
    First let me thank Chancellor Anne Ponder and the 
University of North Carolina in Asheville for their gracious 
hospitality in hosting this hearing. They've done a fabulous 
job of preparing the room. We appreciate the hard work of 
everyone involved.
    I also want to thank the witnesses today for agreeing to 
participate. We look forward to receiving their testimony. To 
our friends from the National Park Conservation Association and 
the Discover Life in America Organization, more importantly, 
thank you for hosting the reception this morning.
    The purpose of this hearing is to receive testimony 
regarding the All Taxa Biodiversity Inventory, or ATBI, within 
the Great Smoky Mountains National Park. The ATBI is an 
ambitious project to identify and catalog all nature of species 
in more than a half a million acres. A tremendous undertaking 
when you consider that the backyard of many homes in this 
country could have several hundred species.
    The project has been going on for over 10 years. It's a 
good time to get an update on the progress that's been made. 
More importantly what lies ahead.
    Specifically we have asked the witnesses to be prepared to 
address one, how much has been learned, up to this point, and 
at what cost?
    Two, what is left to be done and what is the estimated time 
and cost to complete the inventory?
    Three, how has the data been used and what might be the 
execution use?
    Four, what changes should be made in the program?
    Five, should the program be expanded to include other 
National Parks and public lands?
    The Great Smoky Mountains and our other National Parks of 
this country are national treasures. They were established to 
preserve and protect the areas for the enjoyment of current and 
future generations. For that reason it's important that we 
understand the diversity of resources that are present and 
develop management plans that ensure a sustainable environment. 
Today we hope to learn about how ATBI supports that and to what 
extent, if any, ATBI should be expanded.
    We have a talented group of witnesses with us today. I 
would ask our witnesses to please come forward and take your 
seats at the witness table. As they come forward, I will make a 
formal introduction of each one and their title.
    Let me say to everybody in the room, if a Senate hearing 
can be informal, I'm going to attempt to do that. But as I 
learned several years ago when I went to the Senate and asked 
repeatedly why we do it this way? I was always told, this is 
the way we've always done it. So I've got some constraints as 
to how we do this because of the formality of an official 
hearing. I hope you won't find those too distracting.
    Today we've got Dale Ditmanson, Superintendent of Great 
Smoky Mountain National Park.
    Glen Bogart, Principal, Pi Beta Phi Elementary School, 
Gatlinburg, Tennessee.
    Peter White, Professor of Biology and Director of the North 
Carolina Botanical Garden, University of North Carolina at 
Chapel Hill.
    Tim Watkins, Program Officer, National Geographic Society, 
Office of Research, Conservation and Exploration of Washington, 
DC. Tim, I think you probably found the air traffic as 
challenging today as I find many things. I appreciate the fact 
that you made it.
    For the official purposes of this hearing each witness will 
have five minutes to make a statement. I note there is not a 
clock. Therefore I will count extremely slow. I think the 
important thing is to make sure that you cover in your 
statements as thoroughly what you'd like to talk about. I will 
assure you that I will show that latitude.
    Longer statements can be submitted for the record. A court 
reporter will be taking a transcript of this hearing. I'll 
refrain from asking questions until all the witnesses have 
completed their statements.
    With that I will turn to Dale for your opening statement.

   STATEMENT OF DALE DITMANSON, SUPERINTENDENT, GREAT SMOKY 
 MOUNTAINS NATIONAL PARK, NATIONAL PARK SERVICE, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Ditmanson. Good morning everyone. Senator Burr, thank 
you for the opportunity to appear before you today to provide 
the Department of the Interior's views on the All Taxa 
Biodiversity Inventory within Great Smoky Mountains National 
Park in North Carolina and partially in Tennessee.
    [Laughter.]
    Mr. Ditmanson. I will briefly summarize the testimony and 
ask that my written statement be submitted for the record.
    Biological diversity is the hallmark of Great Smoky 
Mountains National Park which encompasses more than 800 square 
miles in the Southern Appalachian Mountains. Dominated by plant 
cover, gently contoured mountains, the crest of the Smokies 
forms the boundary between North Carolina and Tennessee. No 
other area of equal size and temperate climate can match the 
Smokies amazing diversity of plants, animals and invertebrates. 
More than 15,000 species have been documented in the Park. 
Scientists believe an additional 25 to 55,000 taxa may live 
there.
    The All Taxa Biodiversity Inventory is a concentrated 
effort to determine all species within a given area over a 
given period. During a conference held in the fall of 1997, it 
was decided that the Great Smoky Mountains National Park was a 
good venue, actually an ideal venue to attempt a pilot ATBI. 
That the three major thrusts of the project would be 
stewardship, science, and education.
    It was also agreed that the project was too large for any 
park, university or museum to plan and manage so, therefore, a 
private, non-profit organization would be created to manage 
significant elements of the project. Since the beginning of the 
ATBI we have nearly doubled the number of species known in the 
Great Smoky Mountains National Park.
    Nearly every major group of life in the park has been 
examined at some level through the cooperative efforts of 
taxonomic experts. We have held 23 ``bio-quests'', or ``bio-
blitzes'', which are intense, short term field experiences 
organized around particular biological groups. These events are 
popular, convey basic conservation messages to the public, and 
provide education, outreach and citizen science opportunities.
    As many as 877 new species to science have been discovered. 
5,251 species were found in the Smokies that we did not know 
were there or had not been known in the park before, bringing 
the total number of species known in the Smokies to 15,559. The 
park has prioritized over $100,000 a year of operational funds 
to support the ATBI.
    In addition, the park received a base increase in fiscal 
year 2005 of $196,000. That is going to support the National 
Park Service portion of the ATBI. All together Federal funding 
over the last 10 years has exceeded $1.7 million.
    The park's partner, Discover Life in America received 
$100,000 to $150,000 annually over those same years in support 
of the ATBI through donations, largely from the Friends of 
Great Smoky Mountains National Park and the Great Smoky 
Mountains Association. Universities and colleges across the 
country also support the ATBI through various leverage and in 
kind donations.
    One of the lessons learned over the first 10 years of the 
ATBI is that the project is much larger than originally 
thought. It's going to take us many years to complete. With 
that in mind we have set high priority tasks to be completed 
over the next 5 years.
    Those priorities are: we will identify priority taxa so as 
to complete certain taxonomic groups.
    We will address our data management backlogs.
    We will prioritize structured sampling efforts based on a 
new draft protocol.
    We will initiate peer review of the program.
    We will collaborate with other emerging service wide ATBI 
projects in an effort to coordinate verses compete for similar 
resources.
    We will continue ``bio-blitz'' programs to enhance outreach 
and education.
    Parks are now coming together to ensure that the data 
collected through these ATBI efforts are identified, curated, 
managed and analyzed to ensure the park managers make the best 
possible decisions in the preservation and protection of these 
park resources.
    Senator Burr, that concludes my prepared remarks. I'm 
available to answer any of your questions.
    [The prepared statement of Mr. Ditmanson follows:]

   Prepared Statement of Dale Ditmanson, Superintendent, Great Smoky 
   Mountains National Park, National Park Service, Department of the 
                                Interior

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on the All Taxa Biodiversity Inventory within the 
Great Smoky Mountains National Park.
    Biological diversity is the hallmark of Great Smoky Mountains 
National Park (Park), which encompasses more than 800 square miles in 
the Southern Appalachian Mountains. Dominated by plant-covered, gently 
contoured mountains, the crest of the Great Smoky Mountains forms the 
boundary between Tennessee and North Carolina, bisecting the Park from 
northeast to southwest in an unbroken chain that rises more than 5,000 
feet for more than 36 miles. No other area of equal size in a temperate 
climate can match the Smokies amazing diversity of plants, animals, and 
invertebrates. More than 15,000 species have been documented in the 
Park: scientists believe an additional 25-55,000 taxa may live here.
    The All Taxa Biodiversity Inventory (ATBI) concept stemmed from 
interest generated by inventories of biodiversity in Costa Rica. An 
ATBI is a concentrated effort to determine all species within a 
specific area over a given period. During a conference held in the fall 
of 1997, it was decided that the Great Smoky Mountains National Park 
was a good venue to attempt a pilot ATBI and that the three major 
thrusts of the project would be stewardship, science, and education. It 
was also agreed that the project was too large for any one park, 
university, or museum to plan and manage and that a private, non-profit 
organization would be created to manage significant elements of the 
project. The Smokies ATBI would test and design the most effective and 
efficient methods for conducting an ATBI.
    A Science Plan was developed for the ATBI which presented the 
rationale for the project and the organizational themes and objectives 
that structure the work. Overall, the habitats and taxonomic groups to 
be addressed are diverse but, in general, the project-wide goals that 
the ATBI was to address are:

  <bullet> Determine how an ATBI should be done (i.e., methods and 
        design);
  <bullet> Determine what species are present; as well as where they 
        are and when they are present; and
  <bullet> Explain the observed patterns of diversity, abundance and 
        distribution.

    To accomplish these goals, the Smokies ATBI Science Plan called for 
two approaches: traditional sampling and structured sampling. 
Traditional sampling and observing is defined as field surveys in the 
general sense. Collecting and observing is accomplished by individual 
investigators based on their experience, knowledge, time constraints, 
and methods. Structured sampling is defined as those activities that 
take place at predetermined sampling points (Biodiversity Reference 
Points) chosen to represent the diversity of environments and histories 
of the Park's landscape.
    Many sampling events are also conducted as ``bio-quests'' or ``bio-
blitzes'' which are intense, short-term field experiences organized 
around particular biological groups. These events are popular, convey 
basic conservation messages to the public, and provide education, 
outreach, and citizen science opportunities.
    Since the beginning of the ATBI, we have nearly doubled the number 
of species known in the Park. Nearly every major group of life in the 
Park has been examined at some level through the cooperative efforts of 
taxonomic experts. Prior to the ATBI, the Park already had fairly 
complete lists of vascular plants and vertebrates. But, even in 
supposedly well-known groups, new records continued to show up.
    We have held 23 bio-blitzes, and developed a wide array of 
supporting educational programs, products, and curricula. 
Scientifically, it is believed that as many as 877 species new to 
science have been discovered, and 5,251 species were found that were 
known in other areas, but had not been found before in the Smokies, 
bringing the total number of species known in the Smokies to 15,559. Of 
the projected 877 new species to science, 92 have been fully documented 
and published as new species to science.
    Due to the anticipated value and ground-breaking nature of this 
project, the Park prioritized over $100,000 a year of operational funds 
to support the ATBI. In addition the Park received a base increase of 
$196,000 in FY 2005 to support the National Park Service (NPS) portion 
of the ATBI. All together, federal funding has exceeded $1.8 million 
during the first 10 years of the inventory.
    The Park's partner, Discover Life in America (DLIA), received 
$100,000 to $150,000 annually, over those same years, in support of the 
ATBI through donations, largely from the Friends of Great Smoky 
Mountains National Park and the Great Smoky Mountains Association. 
These funds have been directed at bio-blitz and volunteer operations 
and implementation, data management, taxonomic identifications and 
program support. Universities and colleges across the country also 
support the ATBI through various in-kind support efforts. DLIA 
estimates that each year more than $400,000 of in-kind support is 
provided to the project through these partnerships.
    The Park further supports the ATBI through adjunct operations such 
as the Parks as Classrooms Program, the Appalachian Highlands Research 
Learning Center and the Park's Inventory and Monitoring Program. In 
addition, the Park provides DLIA with office, classroom, museum 
curation and laboratory space, information technology/computer support, 
data management, and equipment and supplies in support of operations.
    One of the lessons learned after completing 10 years of the ATBI, 
is that the project is much larger than originally thought and will 
take many more years to complete. With that in mind, the following high 
priority tasks have been identified to be completed over the next five 
years at Great Smoky Mountains National Park.

  <bullet> Identify priority taxa so as to ``complete'' taxonomic 
        groups;
  <bullet> Address the data management backlog;
  <bullet> Initiate structured sampling efforts based on new draft 
        protocol;
  <bullet> Initiate peer review of the overall program in order to 
        stimulate interest in the ecological component of the project, 
        draw new taxonomists to the project and improve program 
        effectiveness;
  <bullet> Collaborate with other emerging Servicewide ATBI projects in 
        an effort to coordinate versus compete for similar resources; 
        and
  <bullet> Continue bio-blitz programs to enhance outreach/education 
        programs.

    Lessons learned from the Smokies and other projects need to be 
disseminated to avoid duplication of effort and to take advantage of 
efficiencies developed at the Great Smokies. These projects need to 
have summaries and data reported nationally to share information and 
resources.
    Many parks have had ATBIs and bio-blitz efforts at varying degrees 
and scales for a nearly a decade. The Great Smoky Mountains ATBI and 
other ATBI projects throughout the NPS will soon benefit from national 
coordination of their projects, allowing the sharing of results and the 
best utilization of the scarce resources that are available to carry 
out ATBIs. Parks and managers are now coming together to ensure that 
the data collected through these efforts are identified, curated, 
managed, and analyzed to inform park managers in making the best 
possible decisions in the preservation and protection of park 
resources, continuing to engage park visitors of all ages and walks of 
life.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to answer any questions that you or any other members of the 
subcommittee may have.

    Senator Burr. Dale, thank you very much.
    Glen.

 STATEMENT OF GLEN BOGART, PRINCIPAL, PI BETA PHI ELEMENTARY, 
                         GATLINBURG, TN

    Mr. Bogart. Senator, what an honor to be here. I am most 
grateful for the invitation to testify before the Subcommittee 
on National Parks of the Senate Committee on Energy and Natural 
Resources. I'm entering my 20th year as principal of Pi Beta 
Phi Elementary, a K-8 school in the tourist town of Gatlinburg, 
Tennessee, and my 38th year in the education profession.
    Our school has a unique partnership, relationship with the 
Great Smoky Mountains National Park. I would like to share some 
background information which I think has had and will continue 
to have a great impact on the All Taxa Biodiversity Inventory. 
In September 1990 our school asked the National Park leadership 
this basic, but far reaching question.
    How can the natural and cultural resources of the Smokies 
be utilized to teach and reinforce the core curriculum of the 
State of Tennessee? That particular question, unknowingly, led 
to the beginning of a collaborative and contemplated 
partnership that has survived and thrived to this very day. Our 
partnership has spent exhaustive hours defining the project, 
establishing goals, developing curriculum units and lesson 
plans and most importantly, cultivating a mutual respect for 
the great missions of the National Park and Pi Beta Phi 
Elementary School. I am proud to add emphatically, I think we 
enjoy working with each other.
    Since 1990 our partnership has developed 37 structured 
units of instruction including pre-site, onsite, post-site, 
that utilize the natural and cultural resources of the park. 
Approximately 72 percent of our students remain at our school 
for the full 9 years from Kindergarten through the eighth 
grade. I believe strongly, very strongly, that our utilization 
of park resources contributes significantly to the development 
of young people that academically excel as well as the 
cultivation of young people who will be future leaders of our 
community, our State and our Nation. I'd like to think that our 
type of education provides for the young people in our tourist 
community the kind of educational experiences that will shape 
and influence decisionmaking on the critical issues of the 
Great Smokies as well as other units of the National Park 
Service.
    I am most appreciative of the past leadership of the 
Smokies, Randy Pope, Karen Wade, Mike Tollefson, Phil Francis 
and the current leadership of Dale Ditmanson and their staffs 
for their passion and cooperation and wisdom through the past 
18 years. I also recognize with gratitude the financial support 
of the Gatlinburg Board of Education and our teaching staff who 
have faithfully developed and implemented, with the park staff, 
this unique curriculum. The teaching staff has been very 
tolerant of my agitation of the planning process which consists 
of continual updating and polishing the curriculum. The past 
and current project directors, coordinators have been 
exceptional with their leadership and dedication to the 
project.
    Senator, I hope that this background information of our 
Parks as Classroom Project contributes in a supporting way to 
the questions of this hearing. I was fortunate to be a founding 
member of the Board of Directors of Discover Life in America. I 
enjoyed and mostly observed the debate among the scientists 
about this very unique model in the United States to identify 
all the living species within the park boundary.
    During the formulative years of the DLIA board's 
organization growth and mission there was never any doubt among 
the educators, I was the Board Chairman of the Educational 
Committee at the time, that the ATBI would yield enormous 
information for us educators to develop instructional programs. 
Higher education especially and secondary and elementary 
education to a lesser extent, were about to witness an 
explosion of research data that had enormous impact on our 
school's Parks as Classrooms Project. Of the 37 curriculum 
units that we teach annually, 15 of those units focus on 
science which uses biodiversity information produced from the 
efforts and successes of ATBI.
    Our students learn to separate groups of organisms. In 
Kindergarten students simply distinguish between invertebrate 
and vertebrate. But by the eighth grade the students sort 
insect orders.
    They classify organisms. They use dichotomous keys. They 
identify specific adaptations for different species.
    They observe habitat requirements. They identify threats 
from pollution and examine exotic invasions. Most importantly, 
students learn how our precious natural resources are 
protected. Statistically in our school alone during the past 
decade, approximately 9,000 student hours have been spent in 
instruction with information from ATBI.
    As you can see from the data the implications for 
instruction, at all levels, the elementary, secondary, higher 
education and citizen education are enormously daunting. 
Eyebrows might be raised concerning the abilities of elementary 
students to engage in scientific study and research. I invite 
any skeptic to visit our school and observe our curriculum in 
action.
    I predict that most doubters would soon discover that young 
students, especially at the upper middle school level, have 
great research potential and are eager to demonstrate their 
abilities and articulate their findings. The ATBI has provided 
numerous opportunities for our students to interact with 
scientists who have significant influence concerning career 
choices. One of my students credits his interest in science to 
his outing with a scientist on the Lepidoptern Blitz a few 
years ago.
    The mentoring scientist invited the student to return the 
next day and cultivated a relationship with the student who was 
inspired to create award winning projects during the last 4 
years. Once again the question might be asked, how in the world 
can a fifth grade student have such technical knowledge about 
Lepidoptera? I am certain that this student's parent would 
grant permission for their child to be interviewed concerning 
his significant knowledge in his potential career choices in 
scientific research.
    I had another student, former student, who was influenced 
by the ATBI to study painstakingly the movements of the snail. 
At the most recent annual meeting of the ATBI, my former 
student, overwhelmed the questioning professors with her 
voluminous research. This student is now a summer intern for 
the National Park Service in Michigan at the age of 16 years.
    Dana Soehn, our current Parks as Classroom Coordinator said 
this to me recently about ATBI. ``Our students get hands on 
experiences participating in the project of national and global 
significance. Because of our poor air quality and threats from 
invasive species in the park, Pi Beta Phi students have the 
opportunities to examine cause and effect relationships and 
multiple challenges we face in protecting our biodiversity. I 
think all of this helps our students to gain a deeper 
appreciation of the Great Smokies and other units of the 
National Park Service.''
    Senator, it is our school's intent to continue aggressively 
to utilize the research from the ATBI realizing that 
instruction must be developmentally appropriate for all age 
groups and grade levels. I am convinced that our partnership 
with the Great Smokies will continue to produce instructional 
programs that will complement the vital ATBI research. I ask of 
our governmental and societal leadership, how can research 
exist without education or how can education exist without 
research?
    In my opinion the equation of research and education are 
mutually dependent. The hopeful discovery of all species in the 
park gives us great cause to applaud the ATBI research and to 
contemplate how that research can be transformed into 
meaningful and exciting education. A quality curriculum to our 
students is never completed.
    I would like to see the continuation of ATBI efforts and 
successes in our National Park, Smokies as well as other 
potential units of the National Park Service. It would be very 
beneficial to our educational profession to have dialog and 
staff development from the ATBI's specialists for these primary 
reasons:
    To provide input with what we teach and how we teach 
science.
    To support the creation of mentoring relationships between 
ATBI scientists and inspired students.
    To continue, aggressively, the dissemination of ATBI 
discoveries which will undoubtedly stimulate among scientists 
greater exploration in the park.
    As scientists experience success with the inventory, I 
predict education will benefit tremendously.
    Personally I want Pi Beta Phi students to know a great deal 
more about the nationwide National Park Service, than just to 
concentrate of the Smokies solely. It is important that Pi Beta 
Phi students grasp the significance of the vastness of lands, 
historical sites, monuments, and other National Parks managed 
by the National Park Service. Ironically and fortunately, our 
partnership is in the beginning stages of developing a 
curriculum unit which focuses on the National Park Service as a 
component of the Department of the Interior.
    It is critically important that our students comprehend the 
mission and critical issues of the National Park Service. It is 
important that our students develop an understanding and 
appreciation of the diversity and history of our nation's great 
natural and cultural resources. Each summer I smile with great 
pride in receiving postcards from my students as they travel 
throughout the United States. I enjoy reading their brief 
comments of excitement and exploration.
    We have at summer's end an impressive collection of 
postcards and pictures which are displayed in our main hallway 
that attracts considerable peer attention and inquiry. I have a 
very strong sense that our teaching and learning experiences 
within the Smokies are stimulating interest and family travel 
to other National Park Service units. Some of them, far away.
    Our integration and inclusion of ATBI discoveries with the 
Tennessee curriculum are a direct result of the need to inform 
parents and citizens about the tremendous biodiversity that is 
nearby. It has been my observation throughout the past 18 
years, that parents and community leaders are much more 
knowledgeable about the Smokies than ever before. The 
investment of time and structural development, community 
education, staff training, parent chaperone training, have 
awakened the populations, especially those that surround the 
Smokies, to the educational opportunities and issues that 
exist.
    Several parents have told me through the years that they 
have learned more about the Smokies than in a lifetime as a 
result of chaperoning/volunteering in our projects. I believe 
that education is all about values and the experiences that 
young people must have in order to prepare them for leadership 
roles. Obtaining knowledge in direct hands-on experiences are 
values that will provide good, solid, decisionmaking for the 
future. The ATBI research contributes greatly to the prescribed 
values we desire for our students at Pi Beta Phi.
    Not long ago, Secretary of the Interior, Dirk Kempthorne 
recognized our school when he presented in Washington to 
Superintendent Ditmanson and me the coveted award, ``Take Pride 
in America.'' This award recognizes those schools and 
organizations in the country that have spent considerable time 
in volunteering to take care of our public lands. Soon 
afterward Secretary Kempthorne visited the Smokies and 
Gatlinburg to witness a sampling of our program that engages 
our youth in the Parks as Classroom Project.
    He took me aside to say that ``meeting the youth and 
observing their involvement in outdoor learning and stewardship 
was the highlight of the trip from Washington.'' With obvious 
pride and agreement I acknowledged his complement from an 
executive branch leader who obviously values the sacredness of 
our tremendous natural and cultural resources throughout the 
land. Our mission at Pi Beta Phi is to develop a foundation for 
life long learning and stewardship.
    Since 2004 the students, teachers and parents have 
volunteered approximately 2,511 hours of stewardship projects 
to include trail rehabilitation, exotic plant removal, monarch 
tagging, salamander collection and other numerous endeavors. 
The accomplishments of the ATBI have provided for our 
curriculum partnership essential information that enriches our 
students' awareness of the biodiversity of the Great Smokies. 
Learning about and experiencing the natural and cultural 
resources of the Smokies are a vital part of our school 
culture.
    Most importantly it is my prayer that our students and 
community are aware and appreciative and protective of our 
biodiversity. I appreciate very much this subcommittee hearing 
on the ATBI and the inclusion of our school's partnership 
project that supports the equation of scientific research in 
education. Thank you.
    [The prepared statement of Mr. Bogart follows:]

 Prepared Statement of Glenn Bogart, Principal, Pi Beta Phi Elementary 
                             Gatlinburg, TN

    I am most grateful for the invitation to testify before the 
Subcommittee on National Parks of the Senate Committee on Energy and 
Natural Resources. I am entering my 20th year as principal of Pi Beta 
Phi Elementary--a K-8 school in the tourist town of Gatlinburg, 
Tennessee--and my 38th year in the education profession. Our school has 
a unique partnership/relationship with the Great Smoky Mountains 
National Park; and, I would like to share some background information 
which I think has had and will continue to have a great impact on the 
All Taxa Biodiversity Inventory.
    In September of 1990 our school asked the National Park leadership 
this basic but far-reaching question: ``How can the natural and 
cultural resources of the Smokies be utilized to teach and to reinforce 
the core curriculum requirements of the State of Tennessee?'' That 
particular question unknowingly led to the beginning of a collaborative 
partnership that has survived and thrived to this very day. Our 
partnership spent exhaustive and contemplative hours defining the 
project, establishing goals, developing curriculum units and lesson 
plans, and, most importantly, cultivating a mutual respect for the 
great missions of the National Park and Pi Beta Phi Elementary School. 
I am proud to add, emphatically, that we enjoy working together.
    Since 1990 our partnership has developed 37 structured units of 
instruction--including pre-site, on-site, and post-site--that utilize 
the natural and cultural resources of the National Park. Approximately 
72% of our students remain at our school for the full 9 years from 
kindergarten through the eighth grade. I believe very strongly that our 
utilization of Park resources contributes significantly to the 
development of young people who academically excel as well as to the 
cultivation of young people who will be future leaders of our 
community, our state, and our nation. I like to think that our type of 
education provides for the young people in our tourist community the 
kind of educational experiences that will shape and influence decision-
making on the critical issues of the Great Smokies as well as other 
units of the National Park Service.
    I am most appreciative of the past leadership of the Smokies--Randy 
Pope, Karen Wade, Mike Tollefson, Phil Francis--and the current 
leadership of Dale Ditmanson and their staffs for their passionate 
cooperation and wisdom throughout the past 18 years. I also recognize 
with gratitude the financial support of the Gatlinburg Board of 
Education and our teaching staff who have faithfully developed and 
implemented with the Park staff this unique curriculum. The teaching 
staff especially has been very tolerant of my agitation of the planning 
process which consists of continual updating and polishing the 
curriculum. The past and current Project coordinators have been 
exceptional with their leadership and dedication to the project.
    Mr. Chairman, I hope that this background information of our Parks 
as Classroom Project contributes in a supportive way to the questions 
of this hearing. I was fortunate to be a founding member of the Board 
of Directors of Discover Life In America. I enjoyed, and mostly 
observed, the debate among the scientists about this very unique model 
in the United States to identify all of the living species within the 
Park boundary. During the formative years of the DLIA Board's 
organizational growth and mission, there was never any doubt among the 
educators--I was the Board chairman of the educational committee at the 
time--that the ATBI research would yield enormous information for us 
educators to develop instructional programs. Higher education 
especially and secondary and elementary education, to a lesser extent, 
were about to witness an explosion of research data that had enormous 
impact on our school's Parks as Classroom Project.
    Of the 37 curriculum units that we teach annually, 15 of the units 
focus on science which uses biodiversity information produced from the 
efforts and successes of ATBI. Our students learn to separate groups of 
organisms (In kindergarten the students simply distinguish invertebrate 
from a vertebrate, but by 8th grade the students sort insect orders.), 
classify organisms, use dichotomous keys, identify specific adaptations 
for different species, observe habitat requirements, identify threats 
from pollution, and examine exotic invasions. Most importantly, 
students learn how our precious natural resources are protected. 
Statistically in our school alone during the past decade, approximately 
9000 student hours have been spent in instruction with information from 
the ATBI. As you can see from the data, the implications for 
instruction at all levels--elementary, secondary, higher education, and 
citizen education--are enormously daunting. Eyebrows might be raised 
concerning the abilities of elementary students to engage in scientific 
study and research. I invite any skeptic to visit our school and 
observe our curriculum in action. I predict that most doubters will 
soon discover that young students, especially at the upper middle 
school level, have great research potential and are eager to 
demonstrate their abilities and to articulate their findings.
    The ATBI has provided numerous opportunities for our students to 
interact with scientists who can have significant influence concerning 
career choices. One of my students credits his interest in science to 
his outing with a scientist on a Lepidoptern Blitz a few years ago. The 
mentoring scientist invited the student to return the next day and 
cultivated a relationship with the student who was inspired to create 
award winning projects during the last 4 years. Once again, the 
question might be asked: ``How in the world can a 5th grade student 
have such technical knowledge about Lepidoptera?'' I am certain that 
this student's parents would grant permission for their child to be 
interviewed concerning his significant knowledge and his potential 
career choices in scientific research.
    I have another former student who was influenced by the ATBI to 
study painstakenly the movements of the snail. At the most recent 
annual meeting of the ATBI, my former student overwhelmed the 
questioning professors with her voluminous research. This student is 
now a summer intern for the National Park Service in Michigan and is 16 
years old!
    Dana Soehn, our current Parks as Classroom Coordinator said this to 
me recently about the ATBI: ``Our students get hands-on experiences 
participating in a project of national and global significance. Because 
of our poor air quality and threats from invasive species in the Park, 
Pi Beta Phi students have the opportunities to examine cause and effect 
relationships and the multiple challenges we face in protecting our 
biodiversity. I think all of this helps our students to gain a deeper 
appreciation of the Great Smokies and other units of the National Park 
Service.''
    Mr. Chairman, it is our school's intent to continue aggressively to 
utilize the research from the ATBI. Realizing that instruction must be 
developmentally appropriate for all age groups and grade levels, I am 
convinced that our partnership with the Great Smokies will continue to 
produce instructional programs that will complement the vital ATBI 
research. I ask of our governmental and societal leadership: ``How can 
research exist without education OR how can education exist without 
research?'' In my opinion the equation of research and education are 
mutually dependent. The hopeful discovery of all species in the Park 
gives us great cause to applaud ATBI research and to contemplate how 
that research can be transformed into meaningful and exciting 
education. A quality curriculum for our students is never completed.
    I would like to see the continuation of ATBI efforts and successes 
in our National Park as well as other potential units of the National 
Park Service. It would be very beneficial to our educational profession 
to have dialogue and staff development from the ATBI specialists for 
these primary reasons: a) to provide input with what we teach and how 
we teach science, b) to support the creation of mentoring relationships 
between ATBI scientists and aspiring students, and c) to continue 
aggressively the dissemination of ATBI discoveries which will 
undoubtedly stimulate among scientists greater exploration in the Park. 
As scientists experience success with the Inventory, I predict 
education will benefit tremendously.
    I want Pi Beta Phi students to know a great deal more about the 
nationwide National Park Service than just concentrate on the Smokies 
solely. It is important that Pi Phi students grasp the significance of 
the vastness of lands, historical sites, monuments, and other national 
parks managed by the National Park Service. Ironically and fortunately, 
our partnership is in the beginning stages of developing a curriculum 
unit which focuses on the National Park Service as a component of the 
Department of the Interior. It is critically important that our 
students comprehend the mission and critical issues of the National 
Park Service. It is important that our students develop an 
understanding and appreciation of the diversity and history of our 
nation's great natural and cultural treasures. Each summer I smile with 
great pride in receiving postcards from my students as they travel 
throughout the United States. I enjoy reading their brief comments of 
excitement and exploration. We have at summer's end an impressive 
collection of postcards and pictures which are displayed in our main 
hallway that attracts considerable peer attention and inquiry. I have a 
very strong sense that our teaching and learning experiences within the 
Smokies are stimulating interest and family travel to other NPS units, 
some of them far away.
    Our integration and inclusion of ATBI discoveries with the 
Tennessee curriculum are a direct result of the need to inform parents 
and citizens about the tremendous biodiversity that is nearby. It has 
been my observation throughout the past 18 years that parents and 
community leaders are much more knowledgeable about the Smokies than 
ever before. The investment of time, instructional development, 
community education, staff training, and parent/chaperone training have 
awakened the populations, especially those that surround the Smokies, 
to the educational opportunities and issues that exist. Several parents 
have told me through the years that they have learned more about the 
Smokies than in a lifetime as a result of chaperoning/volunteering in 
the Project. I believe that education is all about values and the 
experiences that young people must have in order to prepare them for 
leadership roles. Obtaining knowledge and direct hands-on experiences 
are values that will provide good solid decision-making for the future. 
The ATBI research contributes greatly to the prescribed values we 
desire for our students at Pi Beta Phi. Not long ago, Secretary of the 
Interior Dirk Kempthorne recognized our school when he presented in 
Washington to Superintendent Ditmanson and me the coveted award ``Take 
Pride in America.'' This award recognizes those schools and 
organizations in the country that have spent considerable time in 
volunteering to take care of our public lands. Soon afterwards, 
Secretary Kempthorne visited the Smokies and Gatlinburg to witness a 
sampling of our program that engages our youth in the Parks as 
Classroom Project. He took me aside to say that ``meeting the youth and 
observing their involvement in outdoor learning and stewardship was the 
high light of the trip from Washington.'' With obvious pride and 
agreement I acknowledged this compliment from an executive branch 
leader who obviously values the sacredness of our tremendous natural 
and cultural resources throughout the land.
    Our mission at Pi Beta Phi Elementary is ``to develop a foundation 
for life-long learning and stewardship.'' Since 2004 the students, 
teachers, and parents have volunteered approximately 10,511 hours in 
stewardship projects to include trail rehabilitation, exotic plant 
removal, monarch tagging, salamander collection, and other numerous 
endeavors. The accomplishments of the ATBI have provided for our 
curriculum partnership essential information that enriches our 
students' awareness of the biodiversity of the Great Smokies. Learning 
about and experiencing the natural and cultural resources of the 
Smokies are a vital part of our school culture. Most importantly, it is 
my prayer that our students and community are aware, appreciative, and 
protective of our biodiversity.
    I appreciate very much this subcommittee hearing on the ATBI and 
the inclusion of our school's partnership Project that supports the 
equation of scientific research and education.

    Senator Burr. Thank you, Glen.
    Dr. White.

   STATEMENT OF PETER WHITE, PROFESSOR, UNIVERSITY OF NORTH 
  CAROLINA AT CHAPEL HILL, DIRECTOR, NORTH CAROLINA BOTANICAL 
   GARDEN, AND BOARD OF DIRECTORS, DISCOVER LIFE IN AMERICA, 
                        CHAPEL HILL, NC

    Mr. White. Senator Burr, I want to thank you and the Senate 
committee for the opportunity to share the excitement, the 
experience and the accomplishments of the Smokies All Taxa 
Biodiversity Inventory. I submitted a detailed statement that I 
hope will be part of the record.
    Today I represent Discover Life in America where I am a 
board member. I hasten to add that I am from the University of 
North Carolina. I'm glad the hearing takes place today in North 
Carolina. Not only did North Carolina help form the State of 
Tennessee, the citizens of North Carolina bought the land which 
is now part of Great Smoky Mountains National Park.
    The Smokies is a treasure of both North Carolina and 
Tennessee. One of our best projects has been the Target Rate 
Project run by Paul Bartels of Warren Wilson College near 
Asheville. An example of our public citizen science is the 
Asheville Mushroom Club which has assisted in the inventory of 
the fungi of the park.
    Discover Life in America has many important partners 
ranging from Great Smoky Mountains National Park and other 
Federal agencies like the USGS to non-profits, especially the 
Friends of the Smokies and the Great Smoky Mountains 
Association, two organizations that have supplied approximately 
80 percent of the Discover Life annual budget. As Ed Wilson, 
the Harvard biologist has written, ``we have done a lot on a 
shoestring.'' We are a grass roots organization.
    We are made up of enthusiasts who have leveraged the 
support that we have received many fold. I'm personally excited 
by our project in the Smokies and by the prospect of expansion 
to other National Parks as we approach the centennial of the 
National Park Service. A centennial that represents an 
important and widely emulated American contribution to the idea 
of world conservation.
    The All Taxa Biodiversity Inventory in the Smokies is the 
largest sustained natural history inventory in the United 
States and one of the largest in the world. The results have 
been remarkable. In my written testimony you'll see that I note 
that there are 877 species that have been discovered, 
previously unknown to science.
    There is a scorecard at the back of the room today which 
has been updated by Becky Nichols of the National Park Service 
which gives the current number of 890 species new to science, 
6,131 species previously unknown to the park, a quarter million 
data records, 10,000 images and a website with two million hits 
a year. It's a fast moving project with many discoveries and 
will be updated continually.
    Great Smoky Mountains National Park rugged landscape of old 
growth forest, diverse climates, unglaciated history and 
diverse habitats produce a park that is teeming with biological 
diversity. The species new to science have included a roll call 
of interesting and beautiful species. Seventy-four new species 
of butterflies and moths, 41 new species of spiders, 70 
different kinds of algae unknown to science, 34 kinds of 
beetles, 27 crayfish and crustaceans and 19 bees and their 
relatives. The scoreboard at the back presents information on 
many more taxonomic groups.
    We are inventorying all of the park's habitats. Teams have 
searched the limestone caverns of the park deep underground. 
Tree climbing teams have been to the tops of the tallest old 
growth trees that harbor unique lichens, insects and other 
species.
    We study all park organisms, large and small. Extend our 
research to the finest scale to species that are though tiny, 
important in an ecological function, like the flow of energy 
and the cycling of organic matter and nutrients. In many ways 
these species are the power plants and lungs of the ecosystem.
    Our project is more than a list. In what habitats do the 
species live? How abundant are they?
    How does this change seasonally? How do they take part in 
the web of life? Are they increasing, decreasing or stable?
    How will they respond to anticipated changes? Like the 
climate that we're to undergo in the next decades? As a result 
we are recording data on location, distribution, seasonal 
changes, abundance and ecological relationships.
    We are doing the ATBI for four basic reasons.
    First, we conduct the ATBI for basic science and for the 
curiosity that drives that science.
    Second, the ATBI supports the mission of Great Smoky 
Mountains National Park and the National Park Service which is 
charged with the conservation of the natural objects and 
wildlife of the park. The ATBI helps develop the idea that 
parks are an oases, storehouses and protectors of the nation's 
biological diversity in addition to being recreational areas or 
vacation destinations.
    Third, ATBI's are important for society at large. Some 
species and some discoveries are important to human well being 
and the economy beyond park boundaries.
    Fourth, biodiversity inventory is the cornerstone of 
environmental education and for connecting students of all ages 
and backgrounds and particularly children to the natural world.
    At Discover Life in America we are pioneers in a proof that 
the All Taxa Biodiversity Inventory can be designed and 
organized and that it will gain support and attention. We have 
embedded biodiversity inventory in an ecological conservation 
and educational context. The phrase ATBI was once a foreign and 
awkward phrase, but has gained in popularity.
    We look forward to your questions. We're here to answer all 
we can about this amazing project. Thank you.
    [The prepared statement of Mr. White follows:]

   Prepared Statement of Peter White, Professor, University of North 
Carolina at Chapel Hill, Director, North Carolina Botanical Garden, and 
              Board of Directors, Discover Life in America

    Discover Life in America (DLIA), Inc., is the non-profit 
organization coordinating the All Taxa Biodiversity Inventory in Great 
Smoky Mountains National Park. As a member of the Board of Directors of 
DLIA, I am happy to have the opportunity to share with you one of the 
most valuable and exciting projects that I have been involved with. We 
began planning the All Taxa Biodiversity Inventory (ATBI) in Great 
Smoky Mountains National Park in December, 1997, and, after time spent 
on organization and pilot projects, we now have logged eight full field 
seasons. We were pioneers when we started and have learned much. I am 
delighted to present our experience and success with you and to answer 
your questions. At the end of this statement I have addressed the five 
questions you have posed for this hearing.
    The concept of National Parks owned by the people is a uniquely 
American and democratic contribution to world conservation, initiated 
in 1872 with the creation of Yellowstone National Park. In 2016, the 
National Park Service itself reaches is 100th Anniversary. The National 
Park Service Centennial Challenge includes the beginnings of the 
extension of the ATBI to additional national parks. We are very excited 
by this effort and the role of the National Park Service as America's 
premier federal agency for the stewardship of the Nation's biological 
diversity.
    I thank DLIA Chair Ernest Bernard, DLIA Executive Director Todd 
Witcher, past DLIA Director Jeanie Hilten, NPS biologists Keith Langdon 
and Becky Nichols, and many fellow DLIA Board Members and fellow 
scientists for providing information for this statement which 
nonetheless remains my own statement to you.
The Largest Sustained Natural History Inventory in the United States
    The All Taxa Biodiversity Inventory in Great Smoky Mountains 
National Park, North Carolina and Tennessee, is the largest sustained 
natural history inventory in the United States and one of the largest 
in the world. We make this claim based on the number of individuals who 
have been involved (over 1,000 scientists and university students from 
20 countries and more than half of the states of the U.S. and hundreds 
of educators). Dozens of universities and museums have taken part in 
the efforts. The effort has generated seven large National Science 
Foundation grants (totaling $1,876,347) as well as many smaller grants 
and a large in-kind contribution of time and effort. We have trained 
over 800 volunteers (scientists, students, teachers, and citizens) in 
our Citizen Science project and have logged nearly 50,000 volunteer 
hours. In-kind support has averaged $120,000 per year, and leveraged 
support has averaged $400,000 per year.

The Results have been Remarkable: 877 species new to science, 5,251 
        species previously unknown from the Park, and 250,000 data 
        records
    The world around us is rich in undiscovered and unexplored 
biological diversity. Great Smoky Mountains National Park's rugged 
landscape, old growth forest, climate, unglaciated history, and diverse 
habitats produce a park that is teeming with biological diversity. Even 
though there is a time lag between field work and confirmation of 
species identities and relationships, we have found 877 species new to 
science and 5,251 species previously unknown from Great Smoky Mountains 
National Park. The species new to science have included 74 butterflies 
and moths, 41 spiders, 70 algae, 314 bacteria, 34 beetles, 27 crayfish 
and crustaceans, 37 fungi, 19 bees and their relatives, and 14 
tardigrades.
    Speaking of bacteria, let us remember that an inventory in hot 
springs of Yellowstone National Park produce the heat-tolerant bacteria 
that are the basis of all of the modern applications of DNA technology 
from forensics to genetic identity and disease treatment. One of our 
researchers, Sean O'Connell of Western Carolina University, is finding 
a wide array of bacteria in our samples, some with links to the 
Yellowstone species. Before we leave the subject of DNA technology, I 
want to note that we one of our researchers, Dave Wagner of the 
University of Connecticut, has been collaborating with the DNA Barcode 
project to create a DNA data base for the lepidopterans of the Park 
(this group is very diverse in the Smokies, with 1,367 species). I will 
describe the DNA Barcode project below. DNA technology is also used 
routinely in the survey of bacteria and other cryptic groups of 
organisms.
    We are creating more than a list of species. We seek to discover 
not only which species are present in each taxonomic group in the Park, 
but also (1) which of these species are rare enough to be of management 
concern, (2) where each species is found in terms of natural community 
affinities (we will use this information to make predictive maps of 
species distributions), (3) the seasonal occurrences and changes in 
abundance of each species, and (4) what the ecological role and 
interactions of the species are. Some species groups are better known 
that others and thus we have been able to proceed past the simple 
listing of species to information on distribution, abundance, and 
ecology. For instance, bird species were well known in the Park when 
our work began. Ted Simons of USGS and North Carolina State University, 
along with his students and collaborators, have assisted us in 
producing detailed information on our web site about this taxonomic 
group (www.dlia.org/atbi/species/Animalia/Chordata/Aves/index.shtml). 
In addition to birds, you will see on the web site that we display 
ecological and distributional information, as well as high quality 
photographs, of many taxonomic groups.
    We have produced many scientific publications (to date we count 107 
peer-reviewed publications), a volume that synthesizes what we have 
found through 2006 (special issue, the Southeastern Naturalist), and an 
information-rich web site (www.dlia.org) which has over two million 
hits per year. The web site houses over 10,000 images donated by staff, 
photographers, scientists, and citizens. Our project seeks to make a 
list of the species known from the Park, but also to capture data on 
abundance, distribution, seasonal occurrence, and ecological 
relationships. Our database has now logged over 250,000 records.
    We have conducted both sustained, structured, question-driven 
research and 24-hour to two-week BioQuests and BioBlitzes that bring 
together scientist, students, educators, and the public in intensive 
searches. Among those are Algal Forays, Millipede March, Diptera Blitz, 
Protista Pursuit, Ant Quest, Fern Forays, Lepidoptera Blitz, Snail 
Search, Team Odonate, Bat Blitz, Beetle Blitz, High Country Quest, Myxo 
Blitz, Fungi Foray, Springtail Bioquest, Fly Bioquest, Aquatic Insect 
Bioquest, Scorpion Fly Bioquest, Litter Blitz, and Sedge Search.

Who is involved in Discover Life in America and the ATBI?
    We are scientists and this is a science-based project, but the 
project is also a deliberate weaving together of educators and 
conservation managers and involves students of all ages and volunteers 
who act as Citizen Scientists. Our project has even inspired artists to 
join: photographers, painters, writers and even musicians have created 
works of art that illustrate and celebrate the diversity of life in the 
Smokies!
    In addition to the universities and museums that have been 
involved, we have many partners. Among the major partners are Great 
Smoky Mountains National Park, Friends of the Smokies, the Great Smoky 
Mountains Association, the US Geological Survey (biologist Charles R. 
Parker has been a major organizer and participant in the ATBI), the 
Great Smoky Mountains Institute at Tremont, the Appalachian Highlands 
Learning Center, the Southern Appalachian Information Node of the 
National Biological Information Infrastructure of USGS, and the Alcoa 
Foundation.
    One example of our partnerships, representative of our work with 
colleges and universities, is with Warren Wilson College very near 
Asheville, North Carolina. Professor Paul Bartels became involved in 
the inventory of Tardigrades at the earliest stages of our project. 
Tardigrades are minute invertebrates that live on mosses and other 
moist surfaces and are a poorly understood aspect of the biodiversity 
and ecology of the Smokies. Bartels worked with his students to develop 
one of the three most important centers for the study of these 
organisms globally (the others are in Italy and Poland). Bartels has 
also incorporated units for public school students. His research 
collaborations with international experts have expanded the knowledge 
of Tardigrades in the Park from three to 73 known species, of which 14 
species are new to science. Are these animals important beyond their 
immediate habitat? Recently, a variety of international laboratories 
have proposed using this group as a new ``model'' organisms for the 
study of development and genetics.

Catching the Public's Imagination
    Our project has taken root and intrigued the public. We have 
attracted attention both nationally and internationally. Stories have 
appeared in outlets as diverse as Newsweek, Southern Living, Scientific 
American, the Smithsonian, and Science.

What is the ATBI like?
    We are inventorying all the Park's habitats. Teams have searched 
the limestone caverns of the western part of the Park deep below 
ground. Tree-climbing teams, primarily under the leadership of Harold 
Keller from Central Missouri University, have reached the tops of the 
tallest old growth trees that harbor unique lichens, insects, and other 
species. We are inventorying the soil, dry habitats, swamps, and rock 
faces that stay wet in our rain forest climate.
    We study all Park organisms, large and small, and extend our 
research to the finest scale to the species that are, though tiny, 
important in ecological functions like the flow of energy and the 
cycling of organic matter and nutrients. In many ways, these species 
are the power plants and lungs of the ecosystems. In one gram of soil, 
for example, there are habitats that range from desert to swamp--and as 
a result hundreds of species of bacteria that can be identified through 
DNA analysis.
    Our project is more than a list. Where do the species live? How 
abundant are they? How do they take part in the web of life? Are they 
increasing, decreasing, or stable? Are they threatened by acid rain, 
ozone exposure, or new diseases? How will they respond to anticipated 
climate change? As a result, we are recording data on location, 
distribution, seasonal changes, abundance, and ecological 
relationships. Early on we drafted a Science Plan that called for both 
traditional taxonomic inventory and structured observation at 
biodiversity reference points. The Plan discussed the questions that 
drive the work and outlined the breadth that would include science, 
management, and education.

DNA Barcoding for Lepidopterans in the Park
    The Smokies ATBI has collaborated with Paul Hebert of the ``DNA 
Barcodes of Life'' project. Let me a give a short introduction to the 
use of DNA segments in biodiversity inventory. Some segments of DNA are 
so invariant that humans and chimpanzees are identical, while other DNA 
segments in the same organisms are so variable that we can tell not 
only humans from chimpanzees, but also one individual human from 
another. In between these extremes are DNA segments that correlate with 
the species level of identification.
    Professor David Wagner of the University of Connecticut is a 
leading researcher on the moths and butterflies of the Park. Work on 
this group has increased the Park list by 476 species (the total is 
currently 1,367 species of lepidopterans in the Park), of which 74 
species are new to science. Wagner has worked with Paul Hebert to 
sample each species for DNA analysis to document the segments of DNA 
that correlate with species identifications. The DNA data then form a 
data base that will be extremely valuable to future discovery and to 
researchers studying lepidopterans in any park or other study area. The 
DNA data base has many applications. This information can be used to 
link caterpillars to the adult forms without the necessity of raising 
each caterpillar to its adult stage. This technology will eventually 
develop to the point that small samples (including the traces and 
fragments that plants and animals leave behind) can be used to rapidly 
identify species and to estimate the probability that a new collection 
represents a species new to science, thus allowing taxonomists to 
prioritize their work.
    DNA analysis is also being used in our project to identify cryptic 
but important microorganisms, such as non-sporulating soil fungi and 
bacteria that are hard to study from a classical morphological 
perspective.
    The association of caterpillars and adults is an important 
application, but consider also that some aphids have seven 
morphologically distinct life stages that can be linked with this 
technology. DNA evidence can unmask lookalike species and show when 
different forms belong to the same species. DNA can also be harvested 
from museum specimens, thus allowing comparison of field collections 
and documented species. This technology can also be used to detect 
diseases carried by organisms. Some scientists even speak of a day 
perhaps only decades in the future when the public will be able to 
carry hand-held species identifiers that are based on DNA analysis from 
small samples and fragments.

Education: Giving children the opportunity to be biodiversity explorers 
        and inquiry based learning for the public
    Glenn Bogart will present a fuller statement on the educational 
value of this project. I simply want to state that this is a project 
that is putting children back in the woods to be first-hand explorers 
and discoverers. Children are innately curious about the living world 
and are closer to the ground that we are--and more ready to turn over 
rocks and logs. From the beginning we have envisioned that our project 
would support public education and would help recruit new generations 
of scientists, experts, and citizens informed about and interested in 
the national parks and other conservation areas. At all ages, there is 
an appetite for natural history information--and a basic interest and 
sympathy with other species with which we share our environment.

Why do an ATBI? Why discover life in America?
    We are doing the ATBI for four basic reasons.
    First, we conduct the ATBI for basic science and the curiosity that 
drives that science. E.O. Wilson has argued that the human brain has 
evolved in a diverse biological world and that humans have a basic 
desire to understand and name the species around us. He calls this 
``biophilia'', an intrinsic interest and curiosity in the living world. 
Basic curiosity is a strong motivator of the ATBI and leads to the joy 
of discovery of previously unknown species and the appreciation for the 
abundance of life in our back yards, under rocks, in drops of water, 
and in the soil and rocks below ground.
    Second, the ATBI supports the mission of Great Smoky Mountains 
National Park and the National Park Service, which is charged with the 
conservation of the natural objects and wild life (NPS legislation uses 
two words, not ``wildlife'' as a single word that often refers to 
larger animal species). It follows that we have to understand the 
biodiversity of parks better than we do. In so doing, we also 
understand better the presence of undesirable invasive pest species, 
which species are rare enough to be of management concern, and which 
species are sensitive to environmental change. We will also understand 
better the web of life and how biodiversity underlies ecosystem 
function and resilience. We will gain information important to 
ecological restoration. The information will be essential to 
understanding the potential for global climate change to affect 
biodiversity on a national scale.
    The ATBI helps develop the idea that Parks are oases, storehouses, 
and protectors of biological diversity, not just recreational areas or 
vacation destinations. The ATBI creates basic information for 
management--as many have said about protected areas, you cannot manage 
what you do not know. Information from the ATBI will be important for 
counteracting existing threats to the Park and for detecting and 
resisting new threats.
    Third, ATBIs are important for society at large. Some species are 
important to human well-being and the economy beyond Park boundaries. 
While the DNA technology based on Yellowstone species of bacteria is an 
extreme example, and it is impossible to predict whether any similar 
cases will develop from our project, the potential is there. For 
instance, the Southern Appalachians were heavily damaged by soil 
erosion after the highly exploitive and non-sustainable logging of the 
early 1900s. While forest soils outside the Park have been affected by 
this erosion, the old growth forest soils of the Smokies may harbor 
organisms that are important to forest restoration on damaged sites. I 
cannot state this for a fact--but I think it is a question that 
deserves to be answered. But we don't have to speculate on other 
values, such as the understanding of new diseases such as the West Nile 
Virus and its distribution or connection between biodiversity and 
ecotourism.
    Biological diversity benefits people (for example, pharmaceuticals 
and microbes that support forest productivity), but we must also 
inventory nature to understand potential threats to human well being 
(e.g., parasites and diseases). Knowledge about biological diversity is 
essential to society. Ecosystems and species provide for an early 
warning system for the health of the biosphere and the human habitat. 
Living things in Great Smoky Mountains National Park depend on clean 
air and water, just as people do. Understanding biological diversity 
supports our understanding of environmental change. Species in the Park 
have different sensitivities to environmental change--for example, soil 
fungi, which play a critical ecological role, may be essential to 
understanding pollutant effects on forest productivity. In studying the 
unknown, we are carrying out an activity in which serendipitous 
discovery is possible.
    Fourth, biodiversity inventory is a cornerstone of environmental 
education and for connecting students of all ages, but particularly 
children, to the natural world. Some of those exposed to the inventory 
will go on to become the experts of tomorrow and all will be more 
informed participants in our democratic institutions.
    Human beings have an innate love of distinguishing, identifying, 
and naming. This is especially true in terms of naming other living 
things. From wildlife watchers to birders to wildflower hunters to fall 
color enthusiasts, people repeatedly demonstrate enthusiasm for a 
diverse environment and for recognizing species. The act of 
identification leads to an interest in habitats, the physical 
environment, species interactions, and the history of life. The project 
draws people from the human scale to see the hidden, unknown, and 
obscure, but often beautiful, intricate, and ecologically important 
species of natural ecosystems. The ATBI seeks participation from people 
of all ages, educational backgrounds, and abilities and seeks to 
enthuse the public with biological science. The project has been very 
successful in welcoming non-scientists and making everyone feel that 
they are part of the exploration and discovery. The project has helped 
erase the gap between academic and public education.

Why an ATBI in Great Smoky Mountains National Park?
    In the temperate zone, the Smokies are a hot spot of biological 
diversity because the Park has a great range in environmental 
conditions and because the land has been above sea level and 
unglaciated for millions of years. The Southern Appalachians harbor 
global high points, at least for the temperate zone, of diversity and 
endemics in several groups, including plants, amphibians, fish, land 
snails, and aquatic insects. The Park comprises 5% of the high peak 
region of the Southern Appalachians, a substantial portion of this 
biotic province. The Park supports diverse ecosystems that represent 
the major ecological gradients of the eastern United States, from warm 
and dry oak-pine forests to cold and wet spruce-fir forests. Mountain 
landscapes offer gradients over relatively small distances, allowing 
for assessment of climate change effects.
    The Park contains the best old growth watersheds in the eastern 
United States. These old forests harbor species missing from more human 
affected lands and are essential for comparisons with human dominated 
landscapes and for understanding human impacts generally. These forests 
may hold the key to understanding forest productivity and the effects 
of soil erosion during the early 1900s on lands outside the Park.
    The Park has substantial past taxonomic research and continuing 
interest and enthusiasm of the academic community.
    The Park was set aside partly for its wildlife and rich array of 
species and continues to enjoy that image--people love the wildlife, 
fall color, and spring wildflowers of the Park.
    The Park has and will continue to change. We study the Park now to 
understand future change.

    Senator Burr. Peter, thank you very much.
    Dr. Watkins.

      STATEMENT OF TIM WATKINS, PROGRAM OFFICER, NATIONAL 
                       GEOGRAPHIC SOCIETY

    Mr. Watkins. Senator Burr, Dr. Lilly, members of the staff 
and the community, thank you for the opportunity to appear 
before you today to comment on All Taxa Biodiversity Inventory 
efforts within the National Park Service. I represent the 
National Geographic Society which is collaborating with the 
National Park Service on a 10-year program of annual Bio 
Blitzes at urban NPS units around the country. Like ATBI, a Bio 
Blitz is an attempt to inventory the species that live within 
the borders of the park.
    Unlike ATBI, a Bio Blitz inventory is short term, a single 
24-hour period and is designed in such a way as to maximize the 
urban public's participation in the event, its access to 
professional biologists and its valuation of the park. For our 
purposes here today it may be useful to think of a Bio Blitz as 
an antecedent to a larger, longer term, more scientifically 
rigorous and costlier ATBI. Because our Bio Blitz program is a 
focal point of the National Geographic Society's interaction 
with the National Park Service on the issues relating to 
biodiversity, I will share some of our experiences and insights 
over the past 2 years of Bio Blitzes and how they may apply to 
ATBI.
    Our Bio Blitz inventories are conducted by professional 
biologists who volunteer to sample organisms from diverse 
habitats in the park. Most of them lead teams of citizens who 
have an interest in biodiversity, science and the park. Apart 
from conducting the inventories the scientists also inform 
participants about species biology and provide the public with 
a positive experience of science in the parks. Many scientists 
also work with K-12 schools and other groups on structured 
activities focused on biodiversity education.
    Our first Bio Blitz was held in May 2007 at Rock Creek Park 
in Washington DC. There were 82 scientists and other experts, 
drawn from diverse universities, museums, natural resource 
agencies and naturalist groups. There were about 1,000 
participants, many of whom joined 84 inventory teams throughout 
the park. At this time, the official species count stands at 
659, over 300 of which were not in the official park data base 
previously.
    Our Bio Blitz this year was held in May at Santa Monica 
Mountains National Recreation Area outside of Los Angeles. 
There were 126 scientists and other experts, 181 field teams, 
1,200 people who joined the teams, nearly 1,400 school children 
in organized field class activities, and about 6,000 
participants overall. This was the largest event of its type in 
the National Recreation Area's history. At this time, the 
official species count stands at 1,716, many of which have not 
previously been recorded.
    What does a Bio Blitz of this magnitude cost? National 
Geographic allocates $200,000 per year for Bio Blitz, including 
staff travel, marketing and promotional materials, consultant 
fees and event equipment rental. SAMO, Santa Monica Mountains 
National Recreation Area, spent $174,000 of Centennial 
Challenge funds, including transportation, staff overtime and 
an Incident Management Team. They also allocated an additional 
$45,000 for post Bio Blitz research and inventories in the park 
by Bio Blitz scientists.
    What have we learned? From a social standpoint, we've 
learned that there is tremendous enthusiasm for hands-on 
learning about biodiversity in National Parks. This is 
especially true among the non-scientist public.
    I don't have time today to share feedback from participants 
or to describe their transformative experiences in the field. 
Suffice it to say that thousands of Angelenos and 
Washingtonians now feel better connected to their local 
National Park and have a better understanding of them as places 
where diverse organisms thrive. ATBI organizers may do well to 
capitalize on this enthusiasm by involving the public in the 
science.
    Scientists, too, are eager to participate in inventories 
and public outreach efforts. They are civic minded and eager to 
cultivate in others the wonder about the living world that 
first started them down their vocational paths. Whether through 
ATBI, Bio Blitz, or other mechanisms, field biologists are a 
valuable group of people to inspire National Park visitors of 
all ages. Their involvement provides a unique means by which 
the National Parks can contribute to the improvement of science 
education in this country and to the recruitment of the next 
generation of biologists.
    From a scientific standpoint, we have learned that new 
confirmations of species presence can be obtained even over a 
mere 24 hour period. Such observations have the potential of 
documenting range expansions in our National Parks and of 
characterizing the biogeographic role of a given Park. 
Furthermore, from our use of GPS technology, we have some 
preliminary information on where species live in the park. I 
emphasize that the presence/absence data, as well as the 
spatial data, are preliminary because the inventories at a Bio 
Blitz are not intended to be exhaustive. Instead, these data 
suggest how future inventory efforts such as ATBI might best be 
focused.
    One additional lesson we have learned is that some 
scientists are sufficiently frustrated by National Park Service 
policies concerning ownership of curated specimens that they 
are reluctant to participate in Bio Blitz projects within NPS 
units. This frustration is likely to affect ATBI inventories as 
well and given the importance of involving as many scientists 
as possible, steps should be taken to resolve the issue. I am 
encouraged that the policy is being re-visited, and I look 
forward to the resolution that is emerging.
    Again Senator, I thank you for the opportunity to speak to 
you today.
    [The prepared statement of Mr. Watkins follows:]

     Prepared Statement of Tim Watkins, Program Officer, National 
                           Geographic Society

    Senator Akaka, Senator Burr, Dr. Lillie, members and staff of the 
committee, thank you for the opportunity to appear before you today to 
comment on All Taxa Biodiversity Inventory efforts within the National 
Park Service.
    I represent the National Geographic Society, which is collaborating 
with the National Park Service on a 10 year program of annual 
BioBlitzes at urban NPS units around the country. Like ATBI, a BioBlitz 
is an attempt to inventory the species that live within the borders of 
a park. Unlike ATBI, a BioBlitz inventory is short term (a single 24-
hour period) and is designed in such a way as to maximize the urban 
public's participation in the event, its access to professional 
biologists, and its valuation of the park. For our purposes here today, 
it may be useful to think of a BioBlitz as antecedent to a larger, 
longer-term, more scientifically rigorous, and costlier ATBI. Because 
our BioBlitz program is a focal point of the National Geographic 
Society's interaction with the National Park Service on issues relating 
to biodiversity, I will share some of our experiences and insights over 
the past two years of BioBlitzes and how they may apply to ATBI.
    Our BioBlitz inventories are conducted by professional biologists 
who volunteer to sample organisms from diverse habitats in the park. 
Most of them lead teams of citizens who have an interest in 
biodiversity, science, and the park. Apart from conducting the 
inventory, the scientists also inform participants about species 
biology and provide the public with a positive experience of science in 
the parks. Many scientists also work with K-12 schools and other groups 
on structured activities focused on biodiversity education.
    Our first BioBlitz was held in May 2007, at Rock Creek Park in 
Washington DC. There were 82 scientists and other experts, drawn from 
diverse universities, museums, natural resource agencies and naturalist 
groups. There were about 1,000 participants, many of whom joined 84 
inventory teams throughout the park. At this time, the official species 
count stands at 659, over 300 of which were not in the official park 
database.
    Our BioBlitz this year was held in May at Santa Monica Mountains 
National Recreation Area. There were 126 scientists and other experts, 
181 field teams, 1200 people who joined the teams, nearly 1400 school 
children in organized field class activities, and about 6000 
participants overall. This was the largest event of its type in the 
National Recreation Area's history. At this time, the official species 
count stands at 1716, many of which have not previously been recorded.
    What does a BioBlitz of this magnitude cost? National Geographic 
allocates $200,000 per year for BioBlitz, including staff travel, 
marketing and promotional materials, consultant fees, and event 
equipment rental. SAMO spent $174,000 of Centennial Challenge funds, 
including transportation, staff overtime, and Incident Management Team. 
They also allocated $45,000 for post-BioBlitz research and inventories 
in the park by BioBlitz scientists.
    What have we learned? From a social standpoint, we've learned that 
there is tremendous enthusiasm for hands-on learning about biodiversity 
in National Parks. This is especially true among the non-scientist 
public. I don't have time today to share feedback from participants or 
to describe their transformative experiences in the field. Suffice it 
to say that thousands of Angelenos and Washingtonians now feel better 
connected to their local National Park and have a better understanding 
of them as places where diverse organisms thrive. ATBI organizers may 
do well to capitalize on this enthusiasm by involving the public in the 
science.
    Scientists, too, are eager to participate in inventories and public 
outreach efforts. They are civic-minded and eager to cultivate in 
others the wonder about the living world that first started them down 
their vocational paths. Whether through ATBI, BioBlitz, or other 
mechanisms, field biologists are a valuable group of people to inspire 
National Park visitors of all ages. Their involvement provides a unique 
means by which the National Parks can contribute to the improvement of 
science education in this country and to the recruitment of the next 
generation of biologists.
    From a scientific standpoint, we have learned that new 
confirmations of species presence can be obtained even over a mere 24 
hour period. Such observations have the potential of documenting range 
expansions in our National Parks and of characterizing the 
biogeographic role of a given Park. Furthermore, from our use of GPS 
technology, we have some preliminary information on where species live 
in the park. I emphasize that the presence/absence data, as well as the 
spatial data, are preliminary because the inventories are not intended 
to be exhaustive.Instead, these data suggest how future inventory 
efforts such as ATBI might be best focused.
    One additional lesson we have learned is that some scientists are 
sufficiently frustrated by National Park Service policy concerning 
ownership of curated specimens that they are reluctant to participate 
in BioBlitz projects within NPS units. This frustration is likely to 
affect ATBI inventories as well and, given the importance of involving 
as many scientists as possible, steps should be taken to resolve the 
issue. I am encouraged that the policy is being re-visited, and I look 
forward to the resolution that is emerging.
    Again, I thank you for the opportunity to speak to you today.

    Senator Burr. Tim, thank you. Again, I thank all of our 
witnesses for their willingness to testify this morning.
    I've got a number of questions and I'll try to do this in 
as informal capacity as I can. There are going to be some 
things that we do need some direction. I'll make that we track, 
cover and duck.
    But seriously, let me ask you as a group. I throw this out 
to any that want to take it. How long does it take to determine 
something that doesn't currently exist in the inventory?
    Dr. White, I'm assuming that as a biologist you haven't 
memorized everything that exists. Take me through the process. 
I go out.
    I participate either in inventory or in Bio Blitz. I see a 
spider. It triggers that this is not one that I've seen before.
    What does one go through to participate? Is that work peer 
reviewed from a standpoint of certification that exists in new 
species?
    Mr. White. Yes, indeed. That's a very interesting question. 
It brings up a point about the score card at the back of the 
room which is there is a time lag between field work and the 
determination that a species is new.
    So the number 890 species new to science, the specimens 
that have been collected to date 2 years from now will know 
they will have been through that process of documentation as to 
whether they are species new to science. Taxonomy is a 
cumulative science. The journals that fill the libraries 
document what biologists have found in the past.
    So taxonomists will compare that newly collected specimen 
to other museum specimens, to the scientific literature. Then 
publish a peer review paper when they determine that that is a 
species new to science. In a sense that's the traditional 
taxonomic way.
    It does take time. It does take a year or 2 years. If it's 
a really exiting and really different species that is obviously 
new, I think we'd accelerate that and get that peer review 
publication out even faster than that.
    On the horizon one of the exciting dimensions of our 
project is the DNA barcodes of life component. Some of our DNA 
is so invariant that humans and chimpanzees are 
indistinguishable. Some DNA is so variable that we can tell one 
individual human being from another.
    But in-between those extremes there are segments of DNA 
that correlate with the species level of identification. Our 
project on butterflies and moths has now created a DNA library. 
New specimens in the future can be compared graphically to that 
DNA library to accelerate the process of species discovery.
    That's a really exciting component that has been 
incorporated into the Smokies Project. Which is gaining 
importance in the scientific world as well.
    Senator Burr. Anybody else?
    Tim, do you see it all over National Geographic if ATBI is 
expanded?
    Mr. Watkins. I do, in a number of different ways. First of 
all, of course, we can be a very effective and have been a very 
effective media partner for the National Park Service on a 
variety of issues including ATBI and by a very esteemed 
gentleman on the role of parks on biogeographics.
    Another important goal that is just now emerging that we 
are very meekly stepping into is providing a particular stock 
or a package that we have now developed to our management 
division for managing and presenting and analyzing geo-
referenced information. So these could be photographs. These 
could be species counts.
    These could be species records. These could be the actual 
specimens. These could be pieces of DNA in which we know the 
actual latitude and longitude in which that information was 
obtained. We can put this into a very, very powerful software 
tool for presenting that information that's available to the 
public that tells very compelling stories about the 
biodiversity, the species diversity, the DNA diversity, the 
habitat diversity of Smoky Mountains National Park, even under 
the----
    Senator Burr. Could we take for granted that this is not 
just inventorying species, but it is an attempt to try to 
figure out from the habitat where they're found whether that's 
a key as to where it ultimately might look in the United States 
in a similar habitat, assuming we can, in fact, find that same 
species?
    Mr. Watkins. Yes, absolutely.
    Mr. White. Senator, could I answer your first question to 
Tim? You asked about National Geographic's role. I just want to 
add on at a slightly different level than the science that the 
ATBI's, quite simply, would not happen without partners.
    The National Park Service could not accomplish this level 
of detail, this level of study, this level of understanding in 
the parks without partnerships. We've modeled that from the 
very beginning with the creation of Discover Life in America. 
National Geographic's involvement is huge in engaging the 
public in the broader scientific community.
    Senator Burr. Tim, let me ask for your experience. Do you 
see ways to improve ATBI?
    Mr. Watkins. I do. I can speak only of my personal 
experience which is only as a former biologist and not a media 
person's, for example. But of course, National Geographic has 
an immense media power in order to shine brighter lights on 
ATBI.
    I speak on behalf of myself, my entire conclusion. One is I 
do believe that enormous strides can be made by being sure to 
include inventories of microbes and other organisms that 
typically, frequently, have not been inventoried in natural 
settings, certainly not in parks. I say that in part because 
the E.O. Wilson Foundation Committee, microbial Bio Blitz of 
Central Park in New York a couple of years ago and found 
several species and higher taxonomic categories of microbes 
that were completely new to science and that was just right in 
the heart of Manhattan.
    I think it's going to be imperative that the data from ATBI 
be made very, very, very public. Not just generally available 
on a data base that the public can find on a website. But 
rather that those data be used as a basis for stories that 
people are able to celebrate the National Parks and what lives 
in them and that they're inspired to go to the parks and to 
find out more about the park that may very well be in their 
backyard.
    Then third, and I'm hearing quite a bit more about ATBI 
than I previously knew. So maybe this is already been done 
quite well, but I think ATBI can be used very directly to 
engage visitors. People coming to the park can participate in 
ATBIs.
    Perhaps can meet the scientists who are doing it, can go 
out into the field with scientists who are doing it. Try the 
methods. Can have some experiences, outreach experiences, 
perhaps at visitor centers, nature centers, ranger led walks, 
you name it, to engage them in the actual research project 
that's happening within the park.
    Senator Burr. Dale, you brought up partnerships. With what 
you've learned from this effort to date, what would enable you 
to create partnerships easier from this point forward?
    Mr. Ditmanson. That's a good question. I'd be interested 
for Peter to add to this question because I wasn't here at the 
beginning of this relationship. I've had the opportunity to 
work with Discover Life in this program the last 4 years as 
Superintendent for Smokies.
    But from the appearances, I don't know that Peter would use 
the word, it was an easy relationship from the beginning. But I 
think it was easy with all of the scientists and the leaders 
and the park coming together to recognize that on a basic level 
how do you manage a National Park without knowing what you 
have? It just seemed like a very basic question.
    Here is a huge National Park. Wonderful biodiversity and we 
didn't know what we had. A great range of people, including 
Peter, were involved. Glen Bogart was involved, the 
Superintendent at that time, Karen Wade, and Assistant 
Superintendent Phil Francis were involved. So I don't know if I 
can say answering your question about what might make it easier 
because I think there's a large group of folks that recognized 
that issue and came together to be very successful with that.
    So, Peter, I don't know if you'd like to add something 
about the beginning.
    Mr. White. Sure. Our relationship with Great Smoky Mountain 
National Park has always been really wonderful. The park has 
been really welcoming to us.
    One of the things that's happened under Dale's leadership 
is the completion of a new science center within the National 
Park. A beautiful, expansive building to house the natural 
history collections and the data that are partly generated by 
Discover Life in America and ATBI partners. So the park has 
really been good to work with.
    In our early years we discovered that we could really 
leverage ourbudget through simple logistics, a little bit of 
housing. Folks within the park who would assist the researchers 
know what was previously known about Great Smoky Mountains 
National Park and folks who would supply locations and maps. 
The Park Service would key find them and the USGS biologist, 
Charles Parker, established some pilot research locations in 
the park that researchers could use.
    So we discovered through that relationship that we could 
leverage what we wanted to do with the Park Service support. 
We're very grateful for that.
    Senator Burr. Tim mentioned that wouldn't it be nice if we 
present this in a way that people who access the park--that you 
alluded to. You said, students should know more about our 
active work. You're familiar with the National Park Passport 
Program?
    What would happen if every student at your school was given 
a copy of that--given a passport and the instructions on how to 
use it? Can you expand and discuss the benefits of giving a 
copy of the passport to every elementary student in this 
country?
    Mr. Bogart. I think that would be a wonderful addition, 
enrichment and a necessary component of an elementary 
education. We are already in the meeting stages, as I mentioned 
about developing a unit for that very purpose. To involve the 
youth in the awareness of our national treasures, I think is an 
imperative role for us educators and for parents.
    Senator Burr. Let me ask you in a slightly different 
format, if I could. If we found a partnership with a supplier 
of education today, either a book supplier or somebody who 
supplies those teaching aids, specifically to elementary school 
and we could put together a partnership where they do the 
distribution to the schools of the passport. We attempted to 
give every child in elementary school a passport and tried to 
institute this as a program for the future. Would you see that 
as an acceptable way to do it and eventually a successful 
venture?
    Mr. Bogart. I do. Senator, there's got to be curriculum 
guidance. There's got to be the rationale, you know, the 
development of a collaborative sense of responsibility for 
that.
    The key to educational achievement or one of the keys, the 
values that I alluded to was how you integrate that information 
and those resources into standard curriculum. I would certainly 
welcome that initiative.
    Senator Burr. Dale, any comment on that?
    Mr. Ditmanson. I do. I have several, that's a great 
question.
    First off I'd like to give a little credit. The passport 
program was actually created by one of the park's partners, 
Eastern National Park and Monument Association. I guess they 
just go by Eastern National now.
    They are a group that's been around for many years since 
the early days of parks and provide sales and support. In fact 
they provide the sale of books and interpretive materials here 
at the Blue Ridge Parkway. A great organization.
    I think in addition to the passport you have to have a 
companion guide. That may be where Glen is talking about 
curriculum. Because just having the book about getting the 
passport stamped at a park, that assures you that they've been 
there and they've done something.
    But I think a companion piece. That's where we've been 
working very hard, the National Park System, to improve Junior 
Ranger Programs and maybe it's a Junior Ranger Science Program 
or some element. So that in addition to just that passport 
being stamped, you actually engage in the park in an activity.
    Interestingly enough in this day and age of children, 
getting them out into nature and getting them involved, we have 
seen a significant increase in our Junior Ranger activities in 
the Smokies because we start to advertise them as family 
programs, not just aimed at children.
    One of the reasons they're so successful, I think, is we 
have to educate our parents as well. Sometimes they're hesitant 
to go out with their children because they may not know the 
answer. But in a group event with families, children, park 
rangers, there's a real opportunity for education. So the 
science element of that is very important.
    Mr. Watkins. Senator, I'd like to add a quick comment.
    Senator Burr. Let me do one thing here. Dale, let me take 
you back here 16 years down the road. Tell me how technology 
potentially will play a role in the experience at the National 
Park, i.e. do you see people downloading to their I-pod before 
they come, a video that will take them on a tour of a given 
area, an experience through a given geographical point and 
additional information that is park specific?
    Mr. Ditmanson. All of the above and sooner than 5 years. We 
are proceeding through the first year of the Centennial 
Challenge that Congress supported for the National Park Service 
this last year. As you're aware, $25 million was made available 
for parks to match with their partners.
    Our two most important partners are represented here today, 
the president of the Friends of the Smokies is here. The 
chairman and the executive director of the Great Smoky 
Mountains Association are here. Both those organizations have 
allowed us at the Smokies to move forward with some partnership 
projects.
    Interestingly one of those is Podcasts. We're already 
developing them. So that there are ways to download them before 
you come to the park, to download them once you come to the 
visitor center, have them available to you so that as you 
travel through the park, you're going across one of the 
mountain highways or to an element of the park that you can 
bring that story up, interact with that while you're in the 
park, or, as you said, before you get there.
    We heard last week in a National Park Service 
Superintendent's Conference that the children today are 
connected in some ways over 6 hours a day to media. While we 
don't want to add to those hours of media, we know that we have 
to get at them through that media. If that media means getting 
them excited to visit a part of the park and then actually get 
out of the car, unhook the earphones and interact with the 
natural environment or the cultural environment, we'll be 
successful.
    Senator Burr. I now refer to Glen on how--you might want to 
comment on that.
    [Laughter.]
    Mr. Bogart. We struggle in education. In fact the hope and 
the interest of many of our students, I think, if you listen to 
the majority of the building, I think the case to put more 
personal money in K-12 education in any single entity, they 
would suggest and I think the data is there to prove that the 
more academically gifted students that we do academically 
challenge students. One can only point to a lack of interest in 
either book and teach or the way you teach.
    It's amazing to me that for most in this room to pull this 
out, we automatically think a call has got to be made. But when 
our children or our students pull this out, they have no 
intentions of making a phone call. They have every intention of 
sending a text message or taking a picture or now, listening to 
music.
    The fact that they communicate differently from the 
standpoint of transmission means we have to rethink how in fact 
we download information to them because they receive 
differently as well. If that did help doing means that their 
level of participation and the depth of their knowledge 
increases. I'm not scared to add to the hours that they might 
utilize it.
    [Laughter.]
    Senator Burr. Tim, why don't we come back to you?
    Mr. Watkins. Yes, I was just going to say that a lot of 
these issues we're discussing right now. Of course, are one of 
the many ways that National Geographic, that are in many, many 
ways would be appropriate for National Geographic to be a 
partner organization in supporting educational programs that 
the development and delivery of materials, like in the 
passport, supporting materials that are related to the passport 
to people.
    I think our education division, of course, is continuously 
active in developing background content and delivering it to 
the teachers around the country. We do some of that actually in 
partnership with the National Park Service already.
    Then last there's some growing interest within National 
Geographic about partnering with organizations such as the 
National Park Service on development on the content of summer 
camp programs. The Junior Ranger Program, for example, has been 
brought up within our society as a modeling organization 
structure that is appealing to us and we see opportunities of 
partnership there. Certainly developing Junior Ranger programs 
and under summer camp sorts of activities within National Parks 
that are centered on ATBI or other aspects of biodiversity is 
an enriched area.
    Mr. White. I just want to say what's so exciting about new 
technology and educational delivery from the perspective of a 
scientist. I think there is intrinsic interest in the public 
and in students of all ages in identifying well, what kind of 
spider is that? Where does it live? Or what's that frog I hear 
singing or what's that bird?
    One of the barriers is how you access that information. How 
you get from I saw something neat to here's some information 
about it, something about its ecology. I just saw advertised a 
software program that you put a microphone out in the 
environment and you record frog songs or bird songs and the 
software compares that to a data base of frog songs and bird 
songs and tells you what species that is singing.
    From there you can go to ecology and conservation and 
understanding the importance of biodiversity. There's nothing a 
scientist likes better than a sense that the public will 
appreciate and understand they didn't have access to the 
information that we develop.
    Senator Burr. Let me say about the passport and then go on. 
I've had several conversations as to how we collectively do an 
expansion of the passport program. I think in this case we 
always get back to the distribution challenges from a 
standpoint of the enormity of our education system and how you 
get it in.
    So I think it is in some fashion partnerships with entities 
that currently have education tools and have a distribution 
network to do it.
    Glen, let me turn to you for just a second. What can we do, 
and we, collectively, the Federal Government, the Park Service 
to help with teacher preparation relative to what you've 
experienced at your school and is there hope for us?
    Mr. Bogart. I think so. Staff development, pre-service 
preparation, collegiate curriculum are all part of providing a 
qualified instructor to provide the unique experiences that 
young people should have. Certainly I think the involvement of 
the Federal Government's take on local, at all levels of staff 
development are crucial to get those messages and methodologies 
out there to prepare teachers.
    As you know Senator, with No Child Left Behind and the 
great national debate that's occurring with that specific 
program, there is a real challenge as to what's being taught. 
What should be? What is accountable?
    But ultimately, I believe that a school is as good as the 
community wants it to be. Part of that discovery, that 
experience for teachers and students, is how we prepare them to 
handle a range of information that connects with the real 
world.
    Senator Burr. Clearly you found, I think a local tool to 
engage your students in science. We struggle in this country to 
try to figure out how to make science and math exciting again. 
You are right to give certain schools, certain systems find the 
book and outperform the rest of the country.
    The challenge is how, I guess how we excite every system to 
look for the books because I think the last thing we want to do 
is play any role in local curriculum. I speak for myself, when 
I say that. It will not happen as long as I am there, if I've 
got anything to say about it.
    Give all of us a sense of what types of courses? What types 
of units you've created that these teachers, went into the 
classroom presenting to students that got them involved?
    Mr. Bogart. This has been a bit of an evolution over 18 
years of developing units of instruction using the natural and 
cultural resources of the park. The units have to be age 
appropriate, you know, the content of what we teach. Of course 
the challenge, they, we want the students to be able to handle 
the information successfully, meaningfully, but to experience 
it first hand.
    Now the variety of topics goes from plants to animals, 
environmental issues, pollution with it. We focused our 
instruction, our project on trying to address the critical 
issues that face the Smokies.
    Senator Burr. Thinking outside of Pi Beta Phi other 
elementary schools that make aware of the parks somewhere in 
Tennessee or North Carolina that you're aware of? On the other 
end of it when they leave you and I'm not sure in Tennessee 
whether that's middle school or----
    Mr. Bogart. Eighth grade.
    Senator Burr. Is there an effort within your system to 
continue, to expand on what you've started.
    Mr. Bogart. We struggle with that. Regrettably we don't 
take that to the secondary level, but perhaps the collegiate 
level. But I think is desirable and is necessary.
    But certainly represents the challenge I think we face to 
see to it that integrated instruction carries on at least 
through the secondary level.
    Mr. Ditmanson. May I add to that?
    Senator Burr. Absolutely.
    Mr. Ditmanson. First off, Glen has with him a publication 
on examples of what we call Parks as Classrooms in the National 
Park System across the country. There are six?
    Mr. Bogart. Six.
    Mr. Ditmanson [continuing]. Case studies of this national 
book of which Pi Beta Phi Elementary is one of those case 
studies. They're an example that we ourselves want to emulate. 
But it's not an easy task.
    Just as we look to partners for the ATBI, we look to 
partners for education. Glen mentioned in his remarks his 
thanks to his school board because the Sevier County School 
District pays for half a paid position and we pay for half of a 
position, making it a priority through our association to pay 
for a full time person at Glen's school to develop that 
program. It is a wonderful partnership that's built right into 
the school system.
    We would love to do that around the park. We have six 
counties contiguous to the Great Smokies. Three in Tennessee, 
three in North Carolina, at least a dozen communities that are 
gateways to the National Park in one way or the other.
    We had this last year an opportunity for a wonderful new 
partner to come to the table through the Friends of the 
Smokies. That is the Toyota Corporation. They have put forth 5$ 
million to 5 National Parks around the country. We received $1 
million at the Smokies.
    Glen, you might not be aware that we are already working 
with the high school in Gatlinburg to take our program into the 
secondary school. Also, our next elementary school that we are 
working very hard to develop a curriculum and to get to that 
level, it might take us a while, because we've had such long 
experience with Pi Beta Phi, is in Cherokee, North Carolina 
working with the Eastern Band of Cherokee Indians.
    As their new schools are being developed our staff are 
already working with them to develop that same type of 
relationship. We hope it will be a long term one. The million 
dollar grant from Toyota will be extended over the next 3 years 
developing programs with additional schools and again which you 
touched on a little bit ago, multiple teacher workshops because 
it has to start within the school system and the teachers 
working together to say this is a mutual goal.
    Senator Burr. Dale, counsel me. How does the goal change to 
fit all since the beginning of this process?
    Mr. Ditmanson. I would say that the goals, if you remember, 
and I think each of us have hit on them in some ways, of 
determining how an ATBI should be accomplished. We've learned a 
lot. You've asked a couple of questions about how we might 
learn from those and do better through them.
    Determining what species are present. But not just the 
inventory, where they are? What's their relative abundance in 
starting to deal with the patterns of diversity and 
distribution? So those overall, overarching goals, I do not 
believe have changed.
    Senator Burr. Why was the Great Smokies chosen to be at the 
center of this project?
    Mr. Ditmanson. I think Peter is probably the better one to 
answer that being around from the beginning.
    Mr. White. First of all the Great Smoky Mountains National 
Park is a hot spot of diversity in many groups of organisms. 
It's just a tremendous amount of biological diversity within 
this National Park. So partly it was for obvious reasons.
    The park has always been known for its biodiversity. The 
public enjoys the salamanders, the synchronous fireflies, the 
fall color that represents that biological diversity. But 
there's also sort of a happenstance historical phenomenon which 
is that one of the National Park Service employees, Keith 
Langdon, who's head of the inventory monitoring program within 
the park became aware of a project in Costa Rica, the first and 
the founding use of the phrase All Taxa Biodiversity Inventory 
was coined for that project.
    But that project largely failed, but it planted an idea in 
Keith's head. He returned to the Smokies to organize our first 
discussion in December 1997. I will also say that the park, all 
parks, but Great Smokies in particular, has always attracted 
research attention. There's a long history of research here. So 
there was a good foundation on which to build.
    Senator Burr. If ATBI were expanded outside of the Great 
Smokies what would you say there would be the three areas that 
you would recommend for expenditure?
    Mr. White. I would pick based on environmental contrast 
with the Smokies. The nation encompasses many environments. I 
would pick deserts. I would pick the Pacific Northwest. I'd 
pick a place in the Rocky Mountains.
    Collectively then, we would learn a lot. Our DNA library 
would build faster. Our species lists would build faster. Our 
contribution to society would build faster.
    I was part of a delegation to Washington a year ago that 
met at National Geographic to discuss proposing a nationwide 
ATBI program for National Parks as part of the Centennial 
Challenge of the National Park Service. This is a matching cash 
program between the National Park Service and outside partners. 
I am thrilled to say that that Centennial Challenge project was 
adopted by the National Park Service.
    I believe there's something like nine parks right now that 
are getting some startup funding to design ATBIs under that 
matching cash program. I think that Centennial Challenge is 
funded year by year. So we all hope that line item remains in 
the Federal budget. The year 2016 is the centennial of the 
National Park Service. It's a major landmark in terms of all 
conservation. We'd love to see ATBIs become very much part of 
the celebration of why National Parks were created in this 
country.
    Senator Burr. Peter, should any taxonomic proof be given 
priority for collection and identification and if so, why?
    Mr. White. Let me first of all state, honestly, that I 
don't think so. There may be others who disagree with me. I 
think one of the values of our project was that we felt all 
life forms were valuable and interesting. We didn't want to 
make it a some biodiversity taxonomic inventory, but an all 
biodiversity taxonomic inventory.
    So, I'd have to say that many of the least known organisms 
probably play a very important ecological roles. It's part of 
the fascination of the project that you can discover things 
under a rock or in a drop of water or in the soil or up in the 
tree tops, now having said that, I have to now retreat to some 
practicalities. Some of the practicalities are that we have 
taxonomic experts for some groups, but not others.
    Another part of the practicality is sort of the economy of 
scale. If we're going to do, as Keith Langdon reminded me this 
morning, if we're going to do lichens in several national 
parks, if we have a lichenologist willing to work with 
specimens from several national parks. Let's go with lichens. 
We'll get a lot from that investment in a short period of time.
    So I think the ultimate goal is all and the short term is 
that we will race ahead on some groups faster than others.
    Senator Burr. Knowing what can come about, what's next? 
Where do we go?
    Mr. White. I think that expansion to additional habitats 
across the country is very important. That will really build 
taxonomic knowledge very quickly. Another thing I think we've 
learned in this project is that we've always thought of two 
sampling strategies or collecting strategies. One we call 
traditional because a scientist will be out there, maybe with 
some volunteers, or a school group, some scouts or a summer 
camp and they will be exploring biodiversity in a traditional 
way which is based on their experience and knowledge and their 
intuition.
    We've also, on the science plans, started what we call 
structured sampling which is finding some biodiversity 
reference points within the park, some sampling locations where 
we will study intensely. I think that intensive reference area 
section of the project is going to develop now more quickly. It 
will be a very important part of, scientifically, how we 
understand the results of our data.
    Senator Burr. In December 2001 in an article in part the 
biologist stated that for every species of life in the park you 
want to answer three questions. What is it? Where is it? What's 
it do?
    Of the species we've identified, have we answered those 
three questions?
    Mr. White. We've answered those questions for some of the 
best known groups. For example, our web pages on the birds of 
the Smokies are amazing. They give distribution within the park 
by elevation and habitat. They have a little link to the bird 
song. They talk about the neucrology of the species and the 
abundance of the species.
    At the other extreme we are recording data now on some 
groups that when we started the inventory we knew very little 
about them in the Smokies. We are capturing the data that will 
go into answering those three questions as we work. But there 
is a spectrum between those groups in which we are satisfied 
with lots of answers to those that we're just still discovering 
the answers to those questions.
    I think those questions are still the right framework for 
the project.
    Senator Burr. With 10 years of experience now, how would 
you modify those questions if you had to?
    Mr. White. I think the only way I would modify those 
questions is just with more detail. For example those questions 
when they say what is it doing in the park? We could talk about 
the interactions among species or the abundance.
    In terms of where are the species? We could talk about 
those seasonal changes or seasonal abundance fluctuations. So, 
again as I look at those questions in the context of this 
hearing I felt they were the right framework, but they, in some 
cases, just can be clarified and made more detailed.
    Senator Burr. That same article, again 2001, estimated that 
it would take 200 experts, 11 and one quarter years to deal 
with 90,000 species. How many experts have actually been 
involved up to this point? Again, remind us of how many 
species?
    Mr. White. Ok. We've now documented 15,000 species in the 
Smokies. As Dale reported we estimate that the number may be 
40,000 total, maybe a bit more than that, maybe even twice that 
number. That's how little we know about biodiversity in our own 
backyards.
    Now counting the scientists involved in the project turns 
out to be a tricky question. Over 1,000 scientists representing 
20 countries and over half of the States of the United States 
have, at one time or another, been involved in this project. 
Some of them have just looked at a few exam specimens or 
reviewed a manuscript. Others have been in the park and worked 
intensely for years on the inventory.
    The 2001 article, that was 7 years ago when really we had 
just had one or two field seasons of experience. I will say 
it's sort of an example of top-down design. Whereas what we've 
done has really been grass roots and build up from the bottom.
    In any case, if you take our 1,000 researchers and you say 
well, how many come to our annual meetings and how many have 
published papers? Probably down to about 100. They aren't 
working full time, they're working part time.
    So going from the equation of 200 full-time, 11 and a half 
years, to what we're actually doing in the ground, we've 
covered a lot of species with the largely leveraged in kind and 
volunteer support that we've had from the scientific community.
    Senator Burr. Tim and Peter, could we pick a continent in 
the world and pick a spot within that continent and potentially 
learn as much in that given spot as we have in this given spot 
about species we knew nothing about?
    Mr. White. Would you like to start?
    Mr. Watkins. Yes, but I wouldn't make it on a continent. I 
would pick the ocean. That said, certainly tropical rain 
forests continue to be under studied, under inventoried, poorly 
understood in terms of even basic biodiversity.
    Yet I think efforts over the past couple of decades on 
inventorying particular places that have gotten a lot of 
interest from United States based researchers who have the 
resources to do this have turned up enormous industries and 
biodiversity. I think of Barro Colorado Island, for example in 
the Panama Canal which was very well studied by U.S. scientists 
at the Smithsonian and other institutions. I think of La Selva 
and Monteverde in Costa Rica that define similar levels of 
attention from basic test comments.
    I would consider it a given--I don't know the numbers off 
the top of my head but certainly in terms of the amount of 
effort that's been inciting in those places and the source of 
the revelations about biodiversity that have been produced in 
those various--timeliness, similarly with the Smokies.
    Mr. White. We have had teams come from other countries to 
study ATBI of the Smokies because they've been excited about 
the possibility of carrying out that sort of work in other 
parts of the world. I'll also say that one of our researchers 
reported at our annual meeting that a gram of soil has the same 
habitat diversity as the entire planet ranging from a swamp to 
a desert within that gram of soil. That within that gram of 
soil that there would be many bacteria species have adapted to 
that wide range of environments just within that small area.
    This again, tells me how little we know even here and 
because bacteria are so important in the metabolism of an 
ecosystem and may harbor some interesting species that have 
economic value outside of the conservation and environmental 
education and ecotourism context. That's very exciting to me, 
that we have that much to discover that might be potentially of 
great value.
    Southern Appalachians, right before the National Park was 
created. The National Park was saved and has some of the best 
old growth forest in the East. But many of the forests were 
being logged at the time and not just by modern methods of 
logging which are benign. But rather by very large scale 
explosion logging that resulting in a lot of soil erosion.
    I think the soils of the old growth sow of the Smokies have 
biodiversity that may be important in restoring the 
productivity of soil eroded lands beyond park boundaries. So 
basically I see so much of discovery in the park. I think all 
of us are so, part of the pleasure of working this project has 
been the folks that have come from other places in the world 
and other parts of the United States to study what we've done 
and to be inspired to carry out that work elsewhere.
    Senator Burr. My last question to try to understand just 
how you need to know what a great opportunity this is to have 
this really in our backyard or front door depending on which 
State you're on.
    Dale, what's the relationship between ATBI and the 
inventory efforts that are taken in the National Parks and how 
frequently is there communication between the two areas?
    Mr. Ditmanson. You know, Peter may know more than I.
    I don't know how frequent it has been, but we have 
exchanged information. I don't think there's any National Park 
unit in the country considering Bio Blitzes or ATBIs that our 
staff or members of the board or directors have discovered that 
we not spoken with. There's a good interchange of 
communication.
    I know that an individual from Acadia has attended one of 
the Discover Life in America conferences. Dr. Nichols on our 
staff actually went up to Acadia in 2006 and participated with 
their first Bio Blitz, so there's certainly a back and forth 
communication.
    Peter, I don't know if you'd add to that?
    Mr. White. As I remember there are something like 40 
National Park Service units that have come to one of the annual 
meetings of ATBI to learn from what we're doing. I am quick to 
point out that some non-park service lands have also attended 
those ATBI meetings. One of the projects that's going right now 
is the Adirondack State Park ATBI.
    The Tennessee State Parks have gotten on board and are 
doing ATBI activities. I would love to see North Carolina State 
Park get involved heavily in this as well.
    Senator Burr. Today we've talked a lot about the 
identification of species, the collection of species. Where are 
collections stored? At what point do you anticipate the need 
for additional storage space?
    Mr. Ditmanson. Peter got to jump the gun on my talking 
about the wonderful new science center we have at Great Smoky 
Mountains National Park. It has been, as a lot of things in 
parks, supported and encouraged by a number of managers and 
leaders through the years. Fortunately that facility came to 
fruition last year. We cut a ribbon last November.
    That facility has the storage facility in it for our 
natural history collections. As I understand somewhere between 
250 and 300,000 entries have been made into our data base 
because of ATBI. Those are stored in that facility.
    There is no need in the future that we can see, based on 
the current rate of collection and the number of items that 
we're going to have to add to that. That facility should 
accommodate a growing collection for some time to come.
    Senator Burr. Have we collected these specimens from 
private property? If so, did we obtain prior approval from the 
property owners?
    Mr. Ditmanson. Let's see if I can answer this 
appropriately. What I wish wasn't happening is private 
individuals collecting species in the National Park without 
permission. We have a lot poaching and other things that go on.
    But the answer to your question is no. The ATBI is 
contained within the geographic boundary of Great Smoky 
Mountains National Park. No private land is involved.
    Senator Burr. Let me just ask you what's left to be done 
with this that can be answered. How long do we estimate it will 
take, just a good faith number.
    Mr. Ditmanson. It's been an interesting conversation. We 
have used words like complete and what does success look like? 
I think each of us up here might provide a different answer.
    We have taken the approach of looking at what are our 
highest priority needs in the next 5 years? Where do we need to 
go and what resources do we need to put toward that?
    There are some areas as Tim and Peter have spoken about, 
the excitement of science, the areas of discovery that continue 
to happen. But at some point in the ATBI, I think the park has 
to identify what are those priority areas where we are not 
learning as much as others or there's some holes in the species 
groups. Should we be focusing on those elements?
    Peter mentioned about the development of structured 
sampling and how do we do that? Because our end goal is to be 
able to manage the park better, to have better indicators in 
some of these species that we can tell about the health of the 
park and that we are managing it for the long run. While we do 
want to know everything that's here, at a certain point in 
certain species areas maybe we've learned what scientists may 
project as 90 percent of those species in that particular area 
in the park.
    For the park that may be where we say our efforts might 
need to be focused in another area. Whereas Discover Life in 
America, because of contact with scientists or National 
Geographic's interest, they may find someone who wants to do 
that 90 to 100 percent. That's ok. But our missions may diverge 
a little bit in where the park's focus is on wanting to fill 
those pieces in, focus on structured samplings so that we have 
better ecological data about the health of the park.
    But to answer your question of how long? I don't know what 
that answer is. I think----
    Senator Burr. I thought you were going to point to Peter, 
so----
    [Laughter.]
    Mr. Ditmanson. I am, but that's ok. In managing National 
Parks, they're dynamic systems. Whether it's the ATBI or other 
resource management elements we are going to continue to 
monitor our resources and go back where inventories were done 
and look for change, and that's going to go on in perpetuity.
    Senator Burr. Let me go to him for how long. I going to 
come back to you with, specifically the Great Smokies and ask 
you to take us through how you go through the process of 
determining what your budget request is and how you break that 
down so that I can understand better the importance of this, if 
you're looking at it in the context of everything.
    Mr. White. Alrighty. I'll make a comment on that question 
that Dale will answer more fully. But the National Park needs 
more money. Smokies needs more money in general. The National 
Park Service needs more money in general.
    Let me just say about the inventory that we are in a 
transition from the all horizons are being pushed out kind of 
inventory toward monitoring. Toward getting toward a place 
where we have gotten that 90 percent and the Park Service's 
interest and that ATBI interest is in getting to that level and 
seeing a transition toward monitoring and use of the data. 
Personally, I can make a guesstimate of the number of years 
that will take, maybe 5.
    But again, I represent a large diverse organization there 
may be better numbers of years of estimates out there for that 
transition. We've learned a lot in these 7 years. I think that 
we are in a position of making that transition.
    There's also something called the collector's curve. 
Whether you collect baseball cards or antique furniture or 
anything else, there are some things that are going to be 
common and easy to find. They won't cost much to find them.
    As you accumulate the common species you begin to get into 
the occasional species and then get to the infrequent species 
and finally get to the rare species. That curve of, in a sense, 
the mission of curves is called the collector's curve. We need 
to get out on that collector's curve at as far as we can go. 
But there will be some rarities whose discovery will only 
happen over the decades and not in this initial inventory phase 
of the project.
    So I think that's one of the benefits of having been part 
of the pioneer group here is that we've learned about that. 
We've learned about the importance of the structured sampling, 
the importance of that transition. As Dale has said the Park 
Service's attitude about biodiversity will go on forever.
    I'll say that new generations of Americans won't need to be 
educated forever. So the biodiversity theme of Great Smoky 
National Park is a forever theme even as we transition from 
inventory to monitoring.
    Senator Burr. Dale, I'm not trying to put you on the spot.
    [Laughter.]
    Senator Burr. If you want to decline to answer, that's 
fine. I think we all agree with what Peter said was we'd like 
to fund it, if it went well. The realities are that we have, as 
everybody knows, a finite amount of money.
    I'm just trying to understand the process that an 
individual would be in charge of the parks or all the different 
categories that you have to look at from the standpoint of the 
enjoyment, the protection of that treasure, the expansion of 
the treasure and how do you handle it?
    Mr. Ditmanson. It is not an easy task. The first thing that 
makes it--well the first two things that make that easier is 
that we have a terrific management team at Great Smoky 
Mountains National Park. For a large park we have managers that 
have very in depth experiences, career and operate at a very 
professional level.
    The division chiefs at the Smokies are equal to and 
actually operate with a budget complexity beyond most of the 
small National Parks in the system. We have five divisions. We 
have a Chief of Resources that are responsible for both natural 
and cultural resources in the park.
    We have a Chief Ranger who is responsible for the 
protection of the resources, protection of visitor facilities 
and our visitors and of safety.
    We have a Chief of Resource Education that is involved with 
our schools and our education programs as well as those 9 
million people who come through the park, 900,000 of them stop 
in one of our visitor centers looking for information.
    We have a Chief of Facilities Management, which of our $18 
million budget, about half is facility management in the park, 
of 300 miles of paved roads, another couple hundred miles of 
back country type roads, 800 miles of trails, 1,000 campsites. 
We're in the top 10 in the National Parks in the country of 
number of assets that we're managing and taking care of and 
facilitating in the park.
    An Administrative Officer that keeps us all whole and 
provides for procurement, hiring, and staffing. We have about 
250 permanent, year-round people. During this time of year we 
have another 150 youth and interns and seasonals and other 
folks who work in the park.
    So it's a major operation.
    Your first two words were just what I wrote down when you 
asked me the question. The balancing act of the National Park 
Service is protection of our resources while providing for the 
visitors, and we happen to have more of them than any other of 
the National Parks.
    Our toilets are flushed more than anybody else's. Our 
trails are stepped on more than anybody else's and add to that 
the level of rainfall and the diversity in the park. It is a 
difficult task.
    About 90 percent, our goal is to keep reducing that, but 
about 90 percent of our dollars are fixed costs, meaning they 
go to pay for personnel that we have on staff and utility 
systems, phones, electricity, all those types of things. Now 
we've been spending some time in the last few weeks adjusting 
our budget because we've already spent over $200,000 more this 
year than last year for fuel.
    The $200,000 is a considerable impact. When you think that 
we're spending $250,000 a year on the ATBI. That's an impact on 
our budget.
    We do look at the resources as a primary issue when we're 
sitting down and talking about our needs. I think if you'd 
asked the representatives here from the Friends and the 
Association, which by the way adds significantly to our budget 
flexibility, one of the things we consider is the level of 
excellence in the park. Such as helping to do air quality 
studies, to do water quality studies, to help with bear 
management because those things may not get done if we're not 
successful in finding a source outside of our base. We often 
find a partner or supplemental source in order to get many of 
those types of things accomplished.
    So we look at the resource issues in the park. What are the 
priorities as far as we are involved, with our cultural 
resources. In addition to these are our asset inventory. For 
example, we have the largest collection of log cabins of any 
National Park in the country.
    We're looking at all the science in the park. But in that 
science program we're also competing for funding when we're 
looking at inventory. We're competing for funding for hours to 
invade in the fight to save the hemlocks in the park.
    The hemlock woolly adelgid, the invasive species, is 
devastating the forests. We are preserving it or treating, I 
shouldn't say we're preserving because treatment doesn't mean 
that we're going to guarantee they'll be preserved forever. But 
we're treating about 70,000 trees in the park on over 1200 
acres. There's over 70,000 acres of the Smokies that have some 
level of hemlock on them.
    So I guess I could go on. There's just a number of 
competing priorities. We're trying to accomplish, even by 
saying we're going to preserve a certain percentage of the 
hemlocks was a decision that we can only go so far in 
preserving those.
    Our Friends group actually encouraged us to go farther. 
This year they found a donor that added to that number. So we 
could increase those acres.
    But we look at that across the board. We also have to 
realize, as we do every year, that there are nine million 
visitors coming into the park, and we want to make sure there's 
an adequate number of rangers out on the road dealing with 
visitor's safety and protection, responding to their needs as 
well. So there are a number of No. 1 priorities.
    Senator Burr. Dale, I'm going to publicly thank you and 
your staff for what I think is a fabulous job at the Great 
Smokies. For a park that is challenged, not just in geography, 
but in visitors. You scared me a little bit because I knew 
Kevin, when you couldn't have.
    [Laughter.]
    Senator Burr [continuing]. Let's just say he's come a long 
way.
    [Laughter.]
    Mr. Ditmanson. We're working on him, sir.
    [Laughter.]
    Senator Burr. Peter, I'd like to answer a question you 
asked earlier with the caveat that this is my response, this is 
not a reflection of the subcommittee, the committee or either 
party. But it's my observations in conversations that I've had 
with the Secretary and with many of the national friends and 
supporters of the Park. I would also like to see that some bit 
of the challenge continue.
    I think given the current challenges we have in 
Washington--I assured the Secretary that I would like to see 
the 10-year authorization of the program and the intent was 
that that was funding with $100 million, so a total of a 
billion dollars over 10 years of which would be matched with 
grant money. I believe in today's fiscal challenges in 
Washington that the only way for such an authorization bill to 
pass is if we leave it up in the annual appropriations process 
to take place verses a mandatory 10-year program and then not 
be able to spend it.
    Let's just say that the Secretary and I are not on the same 
page. The reality was that last year the program was funded $25 
million for 1 year program. This year the likelihood is we will 
not have an appropriations bill that passes before the end of 
our fiscal year. That continuing resolution may or may not have 
extensions of programs that are not authorized for the next 
fiscal year. Nobody probably knows yet.
    I still think it's in the best, long term interest of our 
parks that we get a 10-year authorization. That we let the 
testimony of people like you and the success of parks like the 
Great Smokies be the ammunition that we need annually to go to 
the appropriations process and educate our colleagues on why 
this is a priority. I think the U.S. Congress should wake up 
and look at any program that has a private sector match of 50 
percent and say if somebody cried to me when they're still in 
one against or whether it's the Friends of the National Parks 
believes in it enough to put up 50 percent of the money. We 
ought to wake up and pay attention to that and figure out how 
to leverage it in a way that is in the best interest of that 
treasure.
    So I'm not sure that we're going to be there in the short 
term on an amendment toward program. I'm not sure that more 
mandatory programs are in fact healthy for the country. But I 
think, given what we've got to work with and the experiences 
that we have, this recipe is a very sellable recipe on an 
annual basis. I think if the architecture is there that assures 
us for the next 10 years that there is a national goal to 
establish and merger that partnership, I believe it is time for 
us to step up on Americans and do our part to bring the private 
sector to the table like they have.
    So again, one person's observation from the standpoint of a 
very challenging atmosphere in Washington where Dale is not the 
only one that has to balance, to some degree, within the 
interagency itself. We balance between current maintenance and 
future maintenance and poise. I think we all agree that we 
can't sacrifice future plans because of the level of disrepair 
and the cost is incredibly high if in fact that we let it get 
to that point. So our attempt is to try to do everything we can 
to preserve that treasure----
    I do want to give each one of you one minute to make any 
additional comments that you might want to make. There might 
have been a question you anticipated and didn't get it. You'd 
like to answer a question that was I had first for the official 
record.
    I do want to state that I didn't, like my colleagues, 
Senator Corker, Senator Alexander, Senator Dole as well as my 
good friend in the House, Heath Shuler, all had scheduling 
conflicts that couldn't permit them to be here. I do want to 
note that Dale or Peter, whichever is appropriate one, did we 
discover a bug that we named after Lamar Alexander?
    [Laughter.]
    Mr. White. Yes, indeed. One of our researchers from the 
University of Tennessee found a wonderful little bug that is 
colored with patches of orange similar to the checkered shirt 
of Lamar Alexander wore as he walked across the State 
campaigning. Its scientific name ends in lamaralexanderi.
    [Laughter.]
    Mr. White. We presented him with a picture, the researcher, 
Ernie Bernard from the University of Tennessee presented him 
with a picture and a plaque noting that.
    Senator Burr. I will figure out the appropriate official 
capacity to break that news to his colleagues.
    [Laughter.]
    Senator Burr. Lamar Alexander really is the name for a bug.
    [Laughter.]
    Senator Burr. My version will be better than yours.
    [Laughter.]
    Senator Burr. They all thought I came for your comments.
    Mr. Ditmanson. Yes, I'll try to match your minute request. 
First let me mention, I appreciate your comments on the 
Centennial Challenge that there are individuals and groups out 
there that want to do the right thing for the National Parks. 
As we approach the 75th anniversary of the Great Smoky 
Mountains next year a foundation in Knoxville has stepped 
forward with a $2 million challenge grant to protect the trails 
in the park in perpetuity.
    We are working through our internal process to approve the 
fund raising elements of that. Once done, the Friends will 
embark, on matching the $2 million so that we will have a $4 
million endowment and if we're up to 5 percent interest that 
means we'll have about $200,000 a year to hire an additional 
trail crew because maintaining 800 miles of trail in our 
climate is a difficult task and to keep doing that in the 
future.
    So that's just one example of what you said of a group 
that's out there ready to step forward and recognize the needs 
of protecting this park.
    My summary comment would be that everything we talked about 
today is tied to the two things that we're focusing on for the 
75th anniversary of the Smokies. The first is a celebration of 
our heritage because as someone mentioned today this park was 
created because the citizens of North Carolina and Tennessee 
said it was a wonderful place and we ought to protect it. So 
we're celebrating that heritage by working with our communities 
around the park. We have over 100 events, heritage days and 
arts and crafts and other things that will happen outside the 
park in our communities in North Carolina and Tennessee to 
celebrate the park's history.
    But the other piece of what today was about, is if you 
asked me what the biggest success of ATBI is, it's stewardship. 
If we are not good stewards across the board of our National 
Parks in taking care of it than I have failed in my 
responsibility to manage this park unimpaired for future 
generations.
    But we just saw today that the reason that we are 
successful is all the partnerships that come to the table to 
make that happen. Thank you.
    Senator Burr. Dale, thank you.
    Glen.
    Mr. Bogart. Senator, thank you for providing this forum for 
this discussion on the ATBI. I hope that you will continue to 
ask the question about the passport program because I believe 
that contains a base of information and experiences that will 
enrich and expand the knowledge of this country and its future 
leadership. It is so imperative that we prepare young people to 
be future leaders and to prepare them in a way that is based 
upon their experiences, their knowledge and certainly the 
research efforts and successes that come from the ATBI and our 
wonderful relationship with the park.
    I think we are an example of how two agencies can work 
together meaningfully to improve the quality of life for our 
students. In doing so I think we improve the quality of life in 
the community and we expand that throughout the country. I 
thank you for your leadership efforts.
    Senator Burr. Thank you, Glen.
    Peter.
    Mr. White. Thank you very much for the opportunity to share 
this project with the U.S. Senate. Right here in North Carolina 
and Tennessee we've seen the origination of something that is 
really neat and wonderful. Starting with discussions in 1997, 
but our first field season was around 2000.
    We've really developed something that is truly interesting, 
inspirational, different, it's captured public imagination, 
it's been in Scientific American and Newsweek and Smithsonian 
and Southern Living. It's really a project that at the very 
beginning we had no idea we'd be here in front of the U.S. 
Senate today. You see in front of you the four people that 
represent different parts of this sordid project and that we're 
all together and on the same page and in talking about the 
value that was created back then starting with that discussion 
in December 1997.
    It's been a treat to be part of it. I thank you for the 
opportunity to describe it.
    Senator Burr. Thank you, Peter.
    Tim.
    Mr. Watkins. Likewise Senator, I'd like to thank you for 
having me and the rest of us here to participate in this whole 
process. I'll echo Glen's emphasis on the boundary of the parks 
for education and the need for not only cultivate future 
leaders who care deeply about biodiversity and know about 
biotechnology and also cultivating the next generation of 
scientists. I personally have always felt that it's right and 
appropriate that the National Parks are often described as 
America's greatest idea.
    It wasn't just the greatest idea 100 years ago, just the 
greatest idea because of the spectacular amount invested in 
work on our famous geysers. But the greatest idea, in large 
part, due to the ongoing programs like this. I think we're in 
an era right now where young people, especially need to feel 
inspired about biodiversity and the environment around them and 
about stewardship, other communities as well as steward in the 
plan.
    ATBI's and the way the program is centered on biodiversity, 
I think give the parks, all of the parks an opportunity to play 
a very, very central, pivotal role in inspiring the next 
generation of stewards and scientists. So thank you again.
    Senator Burr. Tim, thank you. Again I'd like to thank the 
entire panel. I'd like to thank those that did have enough 
interest to come out and spend, well two hours in this 
community today and this wonderful facility at the University 
of North Carolina at Asheville.
    I know the Chancellor was with this earlier and I forgot 
and I'm remiss that I didn't recognize her. I'm sorry for that 
because this is a wonderful institution and we're proud of the 
work that they do here. I would like to thank the subcommittee 
staff that is with us from Washington today, our court reporter 
is gracious enough to be here with us this morning.
    The hearing record will remain open for two additional 
weeks in the event that anyone has a statement to submit. I 
think this has been extremely helpful. I will assure all of our 
witnesses that we'll have an official document produced on 
this. We will do everything we can to coerce our colleagues to 
read it.
    [Laughter.]
    Senator Burr. In the event that we can't I will assure you 
that Lamar Alexander and I will make every attempt to make sure 
that our colleagues understand the importance of this 
inventory. More importantly, that they understand just how 
successful it's been to this point. Though I don't think any of 
us can look to the future and say here, what is the benefit 
from this particular climate? We know that this challenge has 
helped us in many ways in education and the likelihood is there 
that something that Peter will find that really does unlock the 
key to something unique that we never would have known had we 
not gone through this.
    So, again, I thank all of you for your willingness to be 
with us today. This hearing is adjourned.
    [Whereupon, at 11:27 a.m. the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

        Responses of Peter White to Questions From Senator Burr

    Question 1. How much has been learned and at what cost?
    Answer. We were pioneers and have proved that an All Taxa 
Biodiversity Inventories can be designed and organized and that it will 
gain support and attention. We have validated the concept and created a 
successful and widely emulated model. We have embedded biodiversity 
inventory in a ecological, conservation, and educational context. We 
have established an inspirational and influential reference point for 
other parks interested in biodiversity studies.
    We measure our accomplishments by 877 species new to science, 5,251 
species previously unknown from the Park, 250,000 data records, 10,000 
images of species, a web site with over 2 million hits, and 100s of 
participants that include scientists, conservation managers, educators, 
students of all ages, and artists. We have inspired the public with our 
enthusiasm for the living world and underscored the important of Great 
Smoky Mountains National Park and the National Park Service for 
caretaking the nation's biological diversity. We have learned that 
basic support through Great Smoky Mountains National Park (at first 
primarily from the Friends of the Smokies and the Great Smoky Mountains 
Association, and later through the NPS budget) has been multiplied at 
least four-fold by leveraged, in-kind, and external grant support.
    We have shown that there is much to discover and much that is 
unknown about biological diversity. The five groups of vertebrates and 
higher plants were thought to be well known before we started, but we 
have made discoveries even in these groups and we have created a 
template for increasing the understanding and usefulness of information 
about even the groups that are better known from a taxonomic point of 
view. We have greatly expanded our knowledge of other, less known, 
groups of organisms.
    Question 2. What is left to be done and what is the estimated time 
and cost to complete the inventory?
    Answer. In the next few years we must capitalize on the development 
and evolution of our project over the last eight field seasons. 
Although the intensive inventory of the ATBI will wind down, our work 
will transform to modeling, monitoring, management, and education. In 
that sense, the importance of biodiversity inventory to Great Smoky 
Mountains National Park and the National Park Service will continue as 
central missions of these agencies in perpetuity, as in fact expressed 
in the legislation that established them. In addition, there will 
always be new generations to educate and to train and new citizens to 
affirm the importance of the national parks.
    It is always hard to answer the question: when will the inventory 
be complete? As Phil Francis, then Assistant Superintendent of the Park 
and now Superintendent of the Blue Ridge Parkway, once remarked: How 
many species are there in the Smokies? It reminds me of the question we 
used to get at Mammoth Cave National Park: How many miles of unexplored 
cave are there? This is further complicated by the fact that cave 
mileage presumably remains constant, but the number of species will 
shift through time with environmental change and the invasion of new 
pest organisms from abroad.
    Science and sampling design help us address this issue through what 
is called the ``collector's curve''. The collector's curve describes 
the phenomenon that it is relatively easy to find and list the common 
species, but as we hunt for the last and rarest species we have to 
invest more and more time. Thus, a biodiversity inventory proceeds up 
the collector's curve as far as time and budget allow. Ultimately, we 
use statistical tools to estimate the total numbers of species. To be 
able to use those statistical tools, though, we need to have explored 
all habitats in a series of seasons and years with standardized methods 
of observation. One of the shifts we have made over the last several 
years is to focus on the structured sampling aspect of our inventory in 
which we are sampling standardized plots and processing backlogs of 
specimens from previous collections on those plots. In addition, there 
are a few understudied groups that we must find a way to add to our 
inventory. We must also document all of our methods and produce 
products that will be useful as the ATBI Alliance moves forward on a 
national scale.
    Question 3. How has the data been used and are there other ways to 
use it?
    Answer. Information developed by the ATBI has been used and has the 
potential for additional use by Park managers, environmental educators, 
society at large, and the scientific community, including contributions 
made to national and international data bases of DNA sequences.
    The value to Park managers resides first in the principle that good 
decisions are based on scientific evidence. The project is helping us 
understand which species are rare and potentially threatened and which 
are not. The project is helping us detect new species invasions and the 
response of natural ecosystems to the damage caused by new pests and 
diseases. During the inventory, for example, the Chinese jumping worm 
was discovered in the Park. This is a worm that causes severe damage to 
soils by consumption of the upper organic layers of the soil that help 
recycle nutrients and retain moisture. The worm was likely released 
inadvertently by fishermen who had purchased the worms from bait shops. 
This species was detected before becoming widespread in the Park; 
further, this case shows how the National Park Service should work with 
local businesses to reduce threats to Park biodiversity. In all of its 
decisions, including land acquisition, fire management, species 
reintroductions, habitat restoration, and invasive species reductions, 
the Park needs the best possible information and the ATBI is helping to 
supply that information.
    As we are able to transition from inventory to monitoring we note 
that the inventories undertaken are comprehensive, done in the same 
geographical study area, and contemporaneous. No current or future 
threats/changes will occur in a vacuum, so doing these inventories 
within a few years makes them more valuable than the same inventories 
done sporadically over a longer time period.
    I believe that Glenn Bogart will speak more about the educational 
use of the project. Let me just comment that this project is helping to 
inspire children with natural history discovery and teaching about the 
living world that surrounds us. The project is also supporting and 
stimulating higher education in taxonomy and biodiversity studies, thus 
maintaining skills in society that are needed for the future.
    Society at large will benefit through the conservation of 
biological diversity and education about the mission of the National 
Park Service, but there can be other benefits, as well. We are studying 
the diseases and parasites carried by species in the Park. This 
knowledge may one day be helpful in understanding the occurrence of new 
human diseases or the appearance of pests and diseases that can affect 
timber resources, crops, fish, wildlife, and livestock beyond Park 
borders.
    The scientific community will benefit because taxonomic studies are 
cumulative--that is, the specimens collected in the Smokies, data 
bases, and the DNA sequence data bases will form a library of 
information that will be used by biodiversity inventories elsewhere as 
research seek to build a better understanding of the tree of life. The 
scientific community also benefits because the work is done in the same 
locations--thus building understanding across taxonomic groups and 
helping to put the work in an ecological context. We also seek to 
better understand the co-occurrences, interactions, and dependencies 
among species, thereby building an understanding of the web of 
interactions among species, and thus be better able to predict how 
biodiversity and ecosystem function are connected and how the 
populations of larger animals and plants are influenced by more obscure 
but functionally important species like bacteria, soil fungi, and 
insects. We have shown the importance and excitement of scientific 
discovery and the importance of natural history museums, universities, 
and national parks in the development of scientific understanding.
    Question 4. What changes if any should be made in the program?
    Answer. We are the pioneers of large scale, all taxa inventory and 
had to organize, write plans, develop structures, identify project 
needs, and coordinate the research of many individuals. We have 
therefore learned lessons to share with future projects. We have 
learned the importance of standardized data bases and the need to work 
with researchers to make sure data is efficiently captured. We have 
learned the interest of the scientific community and that facilitating 
work through small start-up grants and assistance with logistics, and 
especially assisting with housing and the processing and sort of 
collections and data in lab space, will result in a great return in 
leveraged and in-kind support so that dollars invested will be 
multiplied many times.
    We have learned the importance of documenting methods, so that 
these can be repeated. We have learned the importance of trade-offs 
between intensive sampling at particular locations and less intensive 
but more extensive surveys across a full range of conditions that 
control the distribution of species. We have learned the need for both 
traditional and structured methods of observation and collecting. We 
are now in a phase of the project when we are making a transition to an 
emphasis, at least with our internal funding, on the structured 
sampling aspects of the work. We have learned the public appeal of 
intensive short-duration bioblitzes, while at the same time learning 
that these are ideally integrated with a long-term sustained effort. 
The structured sampling, capture of data, and archived methods will 
also allow the transition from intensive inventory to monitoring. As 
the work proceeds to additional sites, it will be important to develop 
economies of scale so that different projects aren't competing for, but 
coordinating the work of taxonomic experts, museums, and universities. 
Central coordination will facilitate a project that will be more than 
the sum of its parts. An important aspect of taxonomic information is, 
in fact, that its value lies in its accumulation across sites and time.
    Question 5. Should the program be expanded to more National Parks?
    Answer. We believe that the most important next step in ATBIs is to 
expand to a series of National Parks and other conservation areas, in 
order to better cover the biological diversity of the United States and 
to create more centers of learning and environmental education. We feel 
this is so central to the National Park Service mission, that the 
popularity and success of our project will be duplicated elsewhere. In 
fact, as I write these words we are pleased that the National Park 
Service Centennial Challenge has established ATBIs in additional parks. 
Nine new parks were included as Centennial Challenge projects this 
year. Some 70-80 parks have expressed interest in participating and 
engaging in taxonomic inventories at some level. Representatives from a 
variety of parks and other conservation areas have joined our annual 
meetings in the Smokies and contributed to discussions of the 
organization of a national ATBI Alliance. We are thrilled that our idea 
has generated interest and ``caught fire'' so widely. The expansion and 
creation of the ATBI Alliance will require us to coordinate data bases, 
funding sources, and the work of taxonomic experts at natural history 
museums and universities across the country.
    We feel the National Park Service is positioned to lead and 
catalyze this expansion. The National Park Service is a premier 
guardian of America's biodiversity and natural ecosystems. National 
discussions and coordination are, in fact, essential to creating a 
project that has value that is more than the sum of the work in 
individual parks.
    Discover Life in America has helped facilitate discussions of 
organization for the ATBI Alliance. Our name ``Discover Life in 
America'' was chosen to reflect our interest in biological discovery 
beyond the Smokies. We share with you the draft mission statement from 
discussions of the ATBI Alliance: To inventory and document the 
biodiversity of the United States, for all the branches of the tree of 
life by intensive, scientific sampling at selected reserves, parks, and 
other protected areas while infusing our citizenry with a strong 
awareness of biodiversity and an appreciation of the fragile complexity 
of our nation's resources.

                                    

      

</pre></body></html>
